In the Court of Appeals of the State of Alaska
Court of Appeals Nos.
A-12282 & A-12301

Yoder Austin Blalock,
Appellant/Cross-Appellee,

Order

v.

Petition for Rehearing
State of Alaska,
Date of Order: 12/10/2019

Appellee/Cross-Appellant.
Trial Court Case No. 3 AN-11 -12129 CR

Before: Allard, Chief Judge, and Wollenberg and Harbison, Judges.

The Appellant, Yoder Austin Blalock, seeks rehearing of our decision in
his case: Blalock v. State,

P.3d

______ 1

Op. No. 2656, 2019 WL 4725166 (Alaska

App. Sept. 27,2019). Blalock raises three claims.
First, Blalock argues that the Court’s opinion set out an incomplete
summary of the underlying facts. As part of this claim, Blalock contends that the Court
mistakenly stated, on page 4 of our slip opinion, that Nathan Tanape’s death was caused
by over twenty stab wounds, when (according to Blalock) the cause of death was a single
stab wound to Tanape’s lung.
The record supports our assertion regarding Tanape’s cause of death. The
medical examiner testified that Tanape’s cause of death was multiple sharp force injuries,
and that Tanape suffered over twenty different wounds. The medical examiner also
testified, however, that the stab wound through Tanape’s left lung was the “fatal injury.”
We are willing to amend our opinion to reflect this fact.

Second, Blalock contends that the Court mistakenly stated, on page 14 of
our slip opinion, that the on-scene officers had not yet downloaded the audio on their
recorders when the detectives began interviewing Blalock. Blalock suggests that this
misstatement materially affected our decision to reject his proposed rule that would have
required an interrogating officer, prior to undertaking an interrogation, to review every
audio and video recording made by other officers in the case.
We acknowledge that we were mistaken about the timing of the officers’
download. But this fact is not material to our decision. Accordingly, we will strike this
statement from our opinion.
Finally, Blalock argues that we should revisit our rejection of his proposed
rule requiring interrogating officers to review the prior recordings made by other officers
prior to an initial interrogation. Having reviewed Blalock’s petition and the State’s
opposition, we decline to alter our conclusion.
IT IS ORDERED:
1. The Petition for Rehearing is GRANTED IN PART.
(a) The fourth full paragraph at page 4 of our decision is amended as follows:
Shortly after the officers arrived, Tanape was transported to
the hospital where he was pronounced dead. An autopsy
revealed that his-death was caused by over twenty stab
wounds. The medical examiner determined that Tanape had
suffered over twenty stab wounds, including one that was
fatal, (b) The fourth paragraph at page 14 of our decision is
amended by striking the words “or even downloaded the
audio on their recorders”:
The officers in this case were interrogating Blalock shortly
after he was taken into custody. The on-scene officers had
not yet prepared a written report or even downloaded the
audio-on-their recorders. If the detectives had asked the on­
scene officers whether Blalock had requested counsel, based

on their testimony the officers would honestly, but
mistakenly, have responded that Blalock had not asked for a
lawyer.
2. In all other respects, the Petition for Rehearing is DENIED.

Entered by direction of the Court.
Clerk of Appellate Courts

^>7. 'hAhtiz
Meredith Montgqme:
cc:

Court of Appeals Judges
Judge Jack W. Smith
Central Staff
Trial Court Appeals Clerk - Anchorage
Publishers

Distribution:
Elizabeth Friedman
2773 Carolee Court
Redding, CA 96002
Ann Black

Office of Criminal Appeals
1031 W. 4th Ave, Suite 200
Anchorage, AK 99501

NOTICE
The text of this opinion can be corrected before the opinion is published in the
Pacific Reporter. Readers are encouraged to bring typographical or other formal
errors to the attention of the Clerk of the Appellate Courts:
303 K Street, Anchorage, Alaska 99501
Fax: (907)264-0878
E-mail: corrections @ akcourts. us

IN THE COURT OF APPEALS OF THE STATE OF ALASKA
YODER AUSTIN BLALOCK,
Appellant/Cross-Appellee,

Court of Appeals Nos. A-12282 & A-12301
Trial Court No. 3 AN-11 -12129 CR

v.
OPINION
STATE OF ALASKA,
Appellee/Cross-Appellant.

No. 2656 — September 27, 2019

Appeal from the Superior Court, Third Judicial District,
Anchorage, Jack W. Smith, Judge.
Appearances: Elizabeth D. Friedman, Law Office of Elizabeth
D. Friedman, Redding, California, under contract with the
Office of Public Advocacy, Anchorage, for the Appellant/CrossAppellee. Ann B. Black, Assistant Attorney General, Office of
Criminal Appeals, Anchorage, and Jahna Lindemuth, Attorney
General, Juneau, for the Appellee/Cross-Appellant.
Before: Allard, Chief Judge, and Wollenberg and Harbison,
Judges.
Judge HARBISON.
Following a jury trial, Yoder Austin Blalock was convicted of seconddegree murder for killing Nathan Tanape. Blalock was sentenced to 60 years with 15
years suspended (45 years to serve) and was placed on probation for a period of 10 years.

Prior to trial, Blalock moved to suppress the statements he made to the
police, both at the scene of his arrest and later at the police station. Blalock argued that,
because he had requested an attorney at the scene, any subsequent questioning by the
police in the absence of an attorney violated the United States Supreme Court’s decision
in Edwards v. A rizona.1 Under Edwards, the police are precluded from initiating further
interrogation of a suspect who has invoked his right to counsel, until counsel has been
made available.2
At an evidentiary hearing, the trial court agreed with Blalock and precluded
the prosecutor from introducing Blalock’s statements as part of the State’s case-in-chief.
But the court later found that the officers’ conduct was neither intentional nor egregious.
Accordingly, applying Alaska Evidence Rule 412 (as interpreted by this Court in State
v. Batts3), the trial court allowed the prosecutor to impeach Blalock’s testimony with his
statements to the police.
On appeal, Blalock challenges the trial court’s ruling permitting the State
to use his statements to impeach him during cross-examination. The State cross-appeals,
arguing that the trial court erred in granting Blalock’s motion to suppress. In particular,
the State argues that Blalock was not subject to a custodial interrogation at the time he
asked for a lawyer and that he was not entitled to anticipatorily invoke his Miranda
rights. Because we conclude that the trial court did not err in allowing the impeachment
use of Blalock’s statements and because we otherwise affirm Blalock’s conviction, we
need not decide the issues raised in the State’s cross-appeal.

1

See Edwards v. Arizona, 451 U.S. 477, 484-86 (1981).

2

Id. at 484-85.

3

See State v. Batts, 195 P.3d 144, 151-52 (Alaska App. 2008).
—2—

2656

At trial, Blalock defended on the ground of self-defense, and the trial court
instructed the jury on this defense. Blalock asked the trial court to instruct the jury on
the “Stand Your Ground” amendment — a 2013 statutory enactment that narrowed a
person’s duty to retreat before using deadly force in self-defense.

Under this

amendment, there is no duty to retreat if the person is “in any... place where the person
has a right to be.”4 The trial court concluded that the “Stand Your Ground” law was not
retroactively applicable to Blalock’s case, which was based on events occurring in 2011,
and the trial court declined to instruct the jury on it.
Blalock now challenges the trial court’s decision. For the reasons explained
here, we agree with the trial court that the statutory amendment did not apply
retroactively to Blalock’s case. We therefore uphold the trial court’s decision declining
to instruct the jury on the 2013 law.
Finally, Blalock raises several challenges to his sentence. We have
reviewed his claims, and we find no merit to them.

Factual background
One night in October 2011, Blalock drove to Tanape’s apartment where
Blalock’s acquaintance, Charles Alexie, and several other people were partying. Outside
of the apartment, Blalock encountered Tanape. When Blalock was standing about ten
feet away from Tanape, Tanape yelled at him to leave.
Blalock began walking back to his truck, saying, “Just wait right there, I got
something for you.” Blalock took something out of his truck and walked back toward
Tanape. Blalock and Tanape faced off. Blalock sprayed Tanape with pepper spray and

4 _AS 11.81.335(b)(5) (enacted by SLA 2013, ch. 51, § 1).
-3 -

2656

slashed him with a knife. Tanape went to the ground; he then grabbed Blalock by the
legs, picked him up, and slammed him to the ground.
Alexie ran toward Blalock and Tanape to intervene, but Blalock sprayed
Alexie with pepper spray, causing Alexie to fall to the ground and have difficulty
breathing. Tanape and Blalock struggled, and then Blalock got up, ran back to his truck,
and drove away, leaving Tanape lying in the middle of the alley.
Alexie ran back inside the apartment, covering his eyes, and yelling for
someone to call 911. Tanape came inside soon after Alexie, covered in blood and unable
to speak.
Police officers responded to the apartment. When they arrived, they noticed
an overwhelming smell of pepper spray and observed Tanape sitting in a chair. He had
wounds on his legs and knees, a large laceration on his head, and what appeared to be
a stab wound to the back of his neck.
Shortly after the officers arrived, Tanape was transported to the hospital
where he was pronounced dead. The medical examiner determined that Tanape had
suffered over twenty stab wounds, including one that was fatal.
After Blalock fled the scene, he called 911 several times to report that he
was involved in the incident. Officers located Blalock and arrested him. They then took
him to the Anchorage Police Department where detectives read him a Miranda warning.5
Blalock agreed to be interviewed by the detectives, and he made incriminating statements
during the interview.

5

See Miranda v. Arizona, 384 U.S. 436, 444 (1966).
—4—

2656

Blalock was subsequently charged with second-degree murder for stabbing
Tanape to death.6 The case proceeded to trial, and Blalock was convicted of seconddegree murder.

Litigation ofBlalock’s motion to suppress and the use of his statements as
impeachment evidence
Prior to trial, Blalock moved to suppress the statements he made during his
arrest and subsequent interview. Blalock asserted that he had clearly invoked his right
to counsel during his arrest and that the on-scene police officers did not report the
invocation to the detectives who later interrogated him. He contended that once he
invoked his right to counsel, the Supreme Court’s decision in Edwards v. Arizona
precluded the police from initiating an interrogation with him until an attorney was
present.7 Although the detectives read him his Miranda rights prior to interrogating him
at the station, Blalock asserted that his statements had to be suppressed because they
were obtained in violation of the Edwards rule.
The evidence presented at the evidentiary hearing on Blalock’s motion
showed that when the officers first confronted Blalock, he made statements about the
incident. In response, one of the officers activated his recorder.
The recording captured the conversations between Blalock and the officers
as follows: Blalock initially made a variety of spontaneous statements, including
repeatedly asking, “Is he okay?” At one point, an officer asked Blalock where his truck
was located. Blalock responded, “Oh, it’s safe. I want to talk to a lawyer.” The officer
replied, “What’s that?” Blalock did not repeat his request for a lawyer.

6

AS 11.41.110(a)( 1) and/or (a)(2).

7

See Edwards v. Arizona, 451 U.S. 477, 484-86 (1981).
-5-

2656

Instead, Blalock continued making rambling statements. For example, he
said, “Well... is (indiscernible) going to be okay or not? Fuck, when I
I first got away, the last time I hit him, I

And when

something happened to his eye.”

During the evidentiary hearing, the officer who made the recording testified
that he did not hear Blalock state that he wanted to talk to a lawyer. The officer was
aware that Blalock said something, which is why he asked Blalock to repeat himself. But
the officer did not hear Blalock say anything in response.
The officer testified that during his contact with Blalock, his radio was
active, so he was hearing radio traffic as well as trying to talk to Blalock. Additionally,
he reported that he had significant hearing loss in certain frequencies, likely due to his
experience as a firefighter and a police officer.
One of the other officers who initially contacted Blalock also testified at the
hearing. He explained that, as the cover officer, he was responsible for making sure that
the scene was safe until other officers arrived to help take Blalock into custody. His
main concern was safety, and he was concentrating on watching Blalock’s behavior to
ensure there was no threat.
The detective who later interviewed Blalock testified that he did not speak
with the arresting officers or listen to the recordings of their contact with Blalock before
the interview.
Based on this evidence, the trial court granted Blalock’s motion to suppress
and excluded Blalock’s statements from being used during the State’s case-in-chief. The
trial court found that Blalock clearly and audibly invoked his right to counsel. The trial
court concluded that a reasonable officer should have heard Blalock’s clear invocation
because “a reasonable officer would be paying attention to statements made by the
defendant, especially when he had a recording device going and was asking questions
-6-

2656

of the defendant.” The trial court therefore suppressed all statements Blalock made to
the on-scene officers after he invoked his right to counsel.
The court also suppressed Blalock’s later statements to the detectives at the
police station. The trial court found that Blalock’s waiver of his Miranda rights at the
police station was invalid under Edwards because the police, not Blalock, initiated the
questioning.8
In its written order granting Blalock’s motion to suppress, the trial court
ruled that Blalock’s statements could not be used for any purpose during the trial “except
to impeach the Defendant’s contradictory testimony at trial.” Blalock did not object to
this ruling at that time.
The case proceeded to trial. After the State rested and the defense had
begun to present its case, Blalock’s attorney indicated that Blalock would testify.
Blalock’s attorney then asserted for the first time that the Miranda violation was
“egregious” and “intentional” and was therefore inadmissible even for impeachment
purposes under Alaska Evidence Rule 412 and this Court’s decision in State v. Batts?
After reviewing its original order and the Batts decision, but without
hearing any additional evidence, the trial court concluded that the violation was
egregious and that Blalock’s statements in response to police questioning could not be
used for any purpose.
The State petitioned for review, and this Court granted the State’s petition.
Because the Batts issue had not been litigated as part of the original suppression
See Edwards, 451 U.S. at 484-85.
9 See State v. Batts, 195 P.3d 144, 151 -52, 157-58 (Alaska App. 2008) (holding that a
defendant may be impeached with statements made in violation of his Miranda rights where
“the violation consisted of a failure... to honor the defendant’s invocation of the right to...
counsel,” unless the Miranda violation was either intentional or egregious).
-7-

2656

proceedings, this Court vacated the trial court’s ruling that the Miranda violation in
Blalock’s case was egregious. We held that “the State was entitled to notice and a proper
opportunity to litigate the [Batts] issue before the [superior] court made new findings that
affected the admissibility of this evidence.”
Based on this ruling, the trial court conducted a second evidentiary hearing
in order to address the Batts issue.
Some of the evidence presented at this second evidentiary hearing mirrored
the evidence that had been presented to the trial court at the first evidentiary hearing.
The trial court again heard that Blalock clearly announced that he wanted to talk to a
lawyer. The trial court again heard officers testify that they did not hear this statement.
But the

State also presented new evidence from a clinical

neuropsychologist. The neuropsychologist, Paul Craig, testified about how the brain
processes auditory information, and specifically how the brain suppresses some input in
order to focus on relevant stimuli. Based on his review of the recording which
documented Blalock’s arrest, Craig concluded that what could be heard on the recording
was not necessarily the equivalent of what ended up in the listeners’ minds. Craig
explained that other input (such as the radio traffic) would have been competing with
Blalock’s voice, and this impacted the ability of at least some of the officers to hear what
Blalock was saying.
Craig also noted that when Blalock invoked his right to counsel, the officer
closest to him had just asked him about the location of his vehicle and he was listening
for an answer to that question. According to Craig, Blalock’s response, asking for a
lawyer, “conceptually didn’t fit in” and therefore an officer might not process, hear, and
comprehend that answer.

-8-

2656

The trial court also heard from a police lieutenant who had not testified at
the first hearing. The lieutenant explained that during high-risk arrests, officers are
experiencing sensory overload, and their attention is consistently divided. A cover
officer’s primary focus is generally on the suspect’s actions, specifically the hands; cover
officers are watching for threatening movements or attempts to reach for weapons.
Arresting officers are generally focused on the arrest itself, to make sure there is no
struggle during the handcuffing process and to ensure that the suspect is secured in the
patrol vehicle.
After hearing this additional evidence, the trial court issued a new ruling,
this time concluding that the Miranda violation was neither intentional nor egregious.
The trial court found that the officers were credible when they testified that
they did not hear or comprehend Blalock’s request for an attorney, and it accordingly
found that the officers did not act intentionally when they questioned him after he asked
for an attorney.
Noting that an egregious violation is one that would be apparent to any
reasonable officer, the trial court found that the violation by the officers in this case was
not egregious because it was caused by natural psychological reactions and tunnel vision
caused by the anxiety of a high-stress situation. The trial court also observed that this
was not the type of situation where application of the exclusionary rule could have an
influence on police behavior and policies.
The trial court similarly found that the detectives’ interrogation of Blalock
at the police station was not an egregious violation of Miranda. In order for the
detectives to have discovered that Blalock had previously invoked his right to counsel,
they would have had to listen carefully to the audio and any video recording prior to
conducting the interrogation. The trial court found that requiring detectives to listen
-9-

2656

carefully to audio and video recordings of the arrest prior to interrogating a homicide
suspect is “simply too high a burden to impose on the police” and is “unreasonable.”
Blalock testified, and the State introduced his statements for impeachment
purposes.

Alaska law regarding the impeachment use of statements obtained in
violation ofMiranda
In Miranda v. Arizona, the Supreme Court held that the privilege against
self-incrimination applies to questioning initiated by law enforcement officers after a
person has been taken into custody and that “prior to any questioning, the person must
be warned that he has a right to remain silent, that any statements he does make may be
used as evidence against him, and that he has a right to the presence of an attorney, either
retained or appointed, »I0 When a suspect in custody invokes his right to counsel, the
police must stop all questioning until counsel is present, unless the defendant initiates the
discussion."
Generally, a defendant’s statements obtained in violation of Miranda are
inadmissible except to impeach the defendant’s inconsistent statements at trial.12 In
Harris v. New York, the Supreme Court explained this exception, concluding that a
defendant’s privilege to testify should not be construed to include the right to commit
perjury: “The shield provided by Miranda cannot be perverted into a license to use

10 Miranda v. Arizona, 384 U.S. 436, 444 (1966).
11 Tagala v. State, 812 P.2d 604, 609 (Alaska App. 1991) (citing Arizona v. Roberson,
486 U.S. 675, 677(1988)).
12 See Harris v. New York, 401 U.S. 222, 226 (1971); Oregon v. Hass, 420 U.S. 714,
723-24(1975).
- 10 -

2656

perjury by way of a defense, free from the risk of confrontation with prior inconsistent
utterances.”13
Alaska Evidence Rule 412 similarly allows a defendant to be impeached
with certain statements obtained in violation of Miranda, regardless of whether the
Miranda violation consisted of a failure to give proper warnings or a failure to honor the
defendant’s invocation of the right to silence or the right to counsel.14
In State v. Batts, we considered the question of whether Evidence Rule 412
is unconstitutional under the Alaska Constitution. In particular, we considered whether
the Alaska exclusionary rule should be applied to prohibit even the impeachment use of
statements obtained in violation of Miranda'*
We concluded that the application of Evidence Rule 412 is constitutional
only when the Miranda violation was neither “intentional” nor “egregious, «16 We
explained that a Miranda violation is “intentional if the officer conducting the
interrogation knew that further questioning would violate Miranda[,] but the officer
consciously chose to continue” questioning.17 We also explained that a Miranda
violation is “egregious if the violation would have been apparent to any reasonable
police officer. »18

13 Harris, 401 U.S. at 225-26.
14 See State v. Batts, 195 P.3d 144, 151-52 (Alaska App. 2008).
15 Id. at 155-58.
16 Id. at 158.
17 Id.
18 Id.
- 11 -

2656

Why we conclude that the trial court did not err when it allowed the State
to use Blalock’s statements for impeachment purposes
On appeal, Blalock argues that the trial court mistakenly applied a
subjective standard in analyzing whether the police conduct was egregious when it
should have applied an objective standard. That is, he contends that the question of
whether a Miranda violation was egregious should not hinge on whether the officers
actually heard Blalock’s invocation but rather on whether a “reasonable police officer”
would have heard Blalock’s statement. Blalock also argues that, even if the arresting
officers’ violation of Miranda was not egregious, the detectives who interrogated
Blalock at the police station subsequently committed an egregious violation of Miranda
by not investigating whether or not he had invoked his right to counsel before they
conducted their interview.
We agree that the question of whether a Miranda violation is “egregious”
under Batts is an objective test. A violation is “egregious” if “the violation would have
been apparent to any reasonable police officer, *»I9 As we said in Batts, “[T]he police
must not be allowed to make violation of Miranda a tactic, nor should the government
be allowed to profit from a Miranda violation that no reasonable police officer would
have committed. »20
Here, in analyzing whether the Miranda violation was egregious, the trial
court correctly applied an objective test. Even though the court found, based on the
testimony presented at the suppression hearing, that a reasonable officer should have
heard Blalock’s invocation of the right to counsel and therefore precluded the State from
relying on Blalock’s statements in its case-in-chief, the new evidence presented at the

!9 Batts, 195 P.3d at 158.
20 Id.
- 12-

2656

Batts hearing led the court to conclude that the Miranda violation was caused by “natural
neuropsychological reactions to stress, multitasking, multiple streams of communication,
and focused operation by each officer.” The trial court noted that Blalock’s statement
was a single non sequitur statement that did not conceptually fit in to the conversation
between Blalock and the officers. It also found that a reasonable officer focused on
safety concerns and distracted by radio traffic during an ongoing homicide investigation
and arrest would not necessarily have heard or immediately internalized a request for
counsel.
The trial court recognized the improbability that none of the arresting
officers would have heard Blalock’s request for counsel. But the trial court found that
the officers’ testimony was credible, and the court expressly concluded that “no officer
heard or comprehended” the defendant’s request for counsel. The trial court noted that
the officer closest to Blalock clearly understood that Blalock had said something because
he attempted to clarify Blalock’s statement by asking, “What’s that?” But Blalock did
not repeat his request. Instead, Blalock continued talking about the crime.
After analyzing the totality of the circumstances, the trial judge found that
the purpose of the exclusionary rule — i.e., to deter police misconduct — would not be
furthered by excluding Blalock’s statements for impeachment purposes. Given the
court’s factual findings, which are not clearly erroneous, we conclude that the trial court
did not err by finding that the arresting officers’ Miranda violation was not egregious.
We recognize that this finding is in tension with the court’s earlier finding that a
reasonable officer should have heard Blalock’s request for counsel. But that tension
serves to undermine the court’s original decision to suppress Blalock’s statements—not
the use of Blalock’s statements for impeachment purposes.

13 ~

2656

To the extent Blalock is also arguing that the trial court erred in finding that
the Miranda violation was not “intentional,” we reject this argument. We held in Batts
that a Miranda violation is “intentional” if the officer consciously decides to continue
questioning while knowing that such questioning violates Miranda?1 This is necessarily
a subjective test.
As we noted earlier, the trial court found credible the officers’ testimony
that they did not hear Blalock’s request for counsel. This finding of credibility is entitled
to broad deference.22 The record supports the trial court’s finding, and we therefore
conclude that the trial court did not err in ruling that the officers did not intentionally
violate Miranda.
Blalock also contends that, even if the arresting officers’ conduct did not
amount to an egregious Miranda violation, the conduct of the detectives who
subsequently interviewed him was egregious, because the detectives did not investigate
whether or not Blalock had invoked his right to counsel.
The officers in this case were interrogating Blalock shortly after he was
taken into custody. The on-scene officers had not yet prepared a written report. If the
detectives had asked the on-scene officers whether Blalock had requested counsel, based
on their testimony the officers would honestly, but mistakenly, have responded that
Blalock had not asked for a lawyer.
It is reasonable to require detectives to check with on-scene officers prior
to conducting an interrogation in order to determine whether the suspect has invoked the

21 Id.
22 See, e.gRausch v. Devine, 80 P.3d 733, 737 (Alaska 2003) (“The trial court’s
findings regarding the credibility of witnesses . . . may be reversed only if clearly
erroneous.”).
- 14-

2656

right to counsel. But Blalock’s proposed rule would deem egregious a detective’s failure
to listen to every available audio recording before conducting a first interview with a
suspect, even when, as here, the interrogation takes place during a dynamic, ongoing
investigation and shortly after a suspect is brought into custody.23 This proposed rule is
inconsistent with the practical realities of police investigations.
We therefore affirm the trial court’s ruling allowing the State to impeach
Blalock’s testimony with the statements he made to the police.
Given our ruling, and because we affirm Blalock’s conviction, the State’s
cross-appeal challenging Blalock’s motion to suppress is moot, and we do not address
it further.

Applicability ofthe 2013 amendment to the self-defensejustification statute
Prior to his trial, Blalock filed notice that he intended to rely on the
justification of self-defense. He also asked the trial court to instruct the jury that he had
no duty to retreat before using self-defense due to the recently enacted “Stand Your
Ground” amendment to the self-defense statute. Under this amendment, a person who

23 We note that a portion of Blalock’s argument is based on the United States Supreme
Court decision Arizona v. Roberson, 486 U.S. 675, 687-88 (1988). But Roberson is not
directly applicable to this case. In Roberson, the Supreme Court held that the Edwards rule
bars police-initiated interrogation following a suspect’s request for counsel, even when the
interrogation is regarding a separate investigation. Id. at 682-85. The Supreme Court stated
that it attached no significance to the fact that the officer who conducted the second
interrogation did not know that the defendant had made a request for counsel. Id. at 687.
This is a different situation than is presented in Blalock’s case, where the question is not
whether Blalock’s Miranda rights were violated, but whether the officers’ conduct was
intentional and egregious such that Blalock’s statements could not be used even to impeach
him.
-15-

2656

is in a place where they have the right to be does not have a duty to retreat before using
deadly force in self-defense.24
The trial court ruled that the legislative change did not apply retroactively
to Blalock’s case, and it declined to instruct the jury on “Stand Your Ground.” Blalock
now challenges this ruling.

Legislative changes to the duty to retreat prior to the use of deadly force
in self-defense
As originally enacted in 1978, the self-defense statute provided, in pertinent
part, that a person may not use deadly force in self-defense if the person knows that with
complete safety, the person can avoid the necessity of using deadly force by retreating.25
But the statute included an exception to the duty to retreat, explaining that it was not
necessary to retreat when a person was in a premises that the person owned or leased.26
Through an amendment in 2006, other exceptions were added, including that a person
had no duty to retreat before using deadly force when in the person’s temporary or
permanent residence or in a building where the person worked in the ordinary course of
employment.27
In 2013, the legislature added yet another exception to the self-defense
statute. This exception, commonly called the “Stand Your Ground” amendment, was
added by House Bill 24, and it provided that there is no duty to retreat before using

24 See AS 11.81.335(b)(5).
25 See SLA 1978, ch. 166, § 10; former AS 11.81.335(b) (1978).
26 See former AS 11.81.335(b)(1) & (2) (1978).
27 SLA 2006, ch. 68, § 3.
-16-

2656

deadly force in self-defense if the person is “in any other place where the person has a
right to be. »28
The question raised by Blalock is whether the 2013 “Stand Your Ground”
amendment applied to his 2011 killing of Nathan Tanape.

Why we conclude that the “Stand Your Ground” amendment is not
retroactive
A statute will not be given retroactive effect unless it clearly appears that
it was the legislature’s intent.29 The legislature passed the “Stand Your Ground”
amendment in 2013, and it became effective on September 18, 2013, ninety days after
the governor signed the bill.30 The legislature did not set out an applicability provision
as part of the legislation and therefore did not make an explicit statement that the “Stand
Your Ground” amendment would apply retroactively.
Blalock argued in the trial court that the “Stand Your Ground” amendment
was not a substantive change in the law but rather was simply a “clarification” of existing
law, and that therefore due process required that the effective date of the “clarification”
was the date of the enactment of the original statute, AS 11.81.335. As a result, he
claims that the 2013 “Stand Your Ground” amendment applied to his 2011 crime.

28 SLA 2013, ch. 51, § 1; see also AS 11.81.335(b)(5).
29 AS 01.10.090; see also Herscher v. State Dept, of Commerce, 568 P.2d 996, 1001
(Alaska 1977); State v. Kaatz, 572 P.2d 775, 779 (Alaska 1977).
30 SLA 2013, ch. 51, § 1; see also Alaska Constitution art. II, § 18 (“Laws passed by the
legislature become effective ninety days after enactment.”); AS 01.10.070 (“Acts become
effective 90 days after becoming law, unless the legislature... provides for another effective
date.”).
-17-

2656

Before the “Stand Your Ground” amendment was passed in 2013, a person
ordinarily had a duty to retreat before using deadly force to defend themselves; there
were four specifically delineated exceptions to this rule.31 But now the law of selfdefense is that there is no duty to retreat before using deadly force, as long as the person
using the force is in a place where they have a right to be.32 This is a substantive change
in the law, not merely a clarification of the existing law.
The legislative history of the amendment supports our interpretation of its
effect on the law of self-defense. For example, Rex Shattuck, staff member to the bill’s
sponsor, Representative Mark Neuman, testified during the House Judiciary Committee
meeting that the “Stand Your Ground” amendment expanded locations from which there
was no duty to retreat. He pointed out that the amendment eliminated the need to retreat
from any location where a person has the legal right to be — such as “out camping, if
you’re on public land” or “outside your home.”33
That the amendment was an expansion of the law, rather than a
“clarification,” also was made clear from an exchange between Representative Les Gara
and Representative Neuman during the House Finance Committee meeting. During that
exchange, Representative Gara expressed concern that ifthere was no difference between
the bill and the current law, then they were “wasting” their time.34 In response,
Representative Neuman explained that, in general, existing Alaska law required persons

31 Former AS 11.81.335(b) (l)-(4) (pre-Sept. 2013 version).
32 AS 11.81.335(b)(5); see also SLA 2013, ch. 51, § 1.
33 Minutes of House Judiciary Comm., House Bill 24, statement by Rex Shattuck,
1:12:18-1:12:24 p.m. (Feb. 6, 2013).
34 Minutes of House Finance Comm., House Bill 24, statement by Representative Les
Gara, 1:48:07-1:48:15 p.m. (Feb. 28, 2013).
- 18 -

2656

to retreat, if they could do so safely, but that the proposed amendment changed the law
by giving more weight to the right to defend oneself and others than to the duty to
retreat.35
Blalock argues that because certain sponsors of the amendment stated that
the amendment “clarifies” the law, this Court should find that the amendment was not
a substantive change to the law of self-defense. For example, during the House Judiciary
Committee meeting, Representative Neuman explained that House Bill 24 was necessary
in light of citizens’ concerns about the right to use self-defense without the courts
second-guessing their decisions.36 Representative Neuman stated that Alaska statutes
already recognize a right to use force, and that House Bill 24 “clarifies that right exists
not only in our home, but also in . . . any place that we have a right to be. i*37 And
Neuman’s staffer, Rex Shattuck, reiterated that the bill was not changing justification,
but rather “add[ing] clarification” to the law.38
Blalock’s argument is unconvincing. The use of the word “clarify” by
some legislators and staffers does not change the fact that the legislature’s purpose in
enacting the “Stand Your Ground” amendment was to expand, not clarify, the right to
use deadly force in self-defense.

35 See Minutes of House Finance Comm., House Bill 24, statement by Representative
Mark Neuman, 1:52:57-1:53:39 p.m. (Feb. 28, 2013).
36 Minutes of House Judiciary Comm., House Bill 24, statement by Representative Mark
Neuman, 1:07:37-1:08:28 p.m. (Feb. 6, 2013).
37 Minutes of House Judiciary Comm., House B ill 24, statement by Representative Mark
Neuman, 1:08:40-1:08:47 p.m. (Feb. 6, 2013).
38 Minutes of House Judiciary Comm., House Bill 24, statement by Rex Shattuck,
1:15:30-1:16:37 p.m. (Feb. 6, 2013).
19-

2656

We also note that other jurisdictions have concluded that similar
amendments to their self-defense statutes were substantive changes to the law and that
the presumption of prospective application applied in the absence of legislative intent to
the contrary.39 We agree with this conclusion.
Accordingly, because Alaska’s “Stand Your Ground” amendment was not
retroactively applicable to Blalock’s case, the superior court did not err by refusing to
instruct the jury on this portion of the self-defense statute.

Blalock’s claims regarding his sentence
Blalock was convicted of second-degree murder, which is an unclassified
felony. At the time of Blalock’s offense, a person convicted of second-degree murder
was subject to a sentence of not less than 10 years and not more than 99 years.40 The
court sentenced Blalock to 60 years with 15 years suspended (45 years to serve).
Blalock now appeals this sentence.
At sentencing, Blalock conceded, and the court found, three aggravating
factors: (1) that Blalock employed a dangerous instrument in furtherance of the offense;
(2) that Blalock’s criminal history included conduct involving repeated instances of
assaultive behavior; and (3) that Blalock was on parole or probation for another felony
charge at the time of the current crime.41 But the court rejected Blalock’s proposed
mitigator — AS 12.55.155(d)(3) (“the defendant committed the offense under some

39 See, e.g., Smiley v. State, 966 So.2d 330,334-36 (Fla. 2007); Commonwealth v. Stone,
291 S.W.3d 696, 703-04 (Ky. 2009); People v. Conyer, 762 N.W.2d 198, 200-01 (Mich.
App. 2008); Anderson v. State, 46 So.3d 835, 838 (Miss. App. 2010).
40 Former AS 12.55.125(b) (2011).
41 See AS 12.55.155(c)(4), (8), and (20), respectively.
— 20 -

2656

degree of duress, coercion, threat, or compulsion insufficient to constitute a complete
defense, but that significantly affected the defendant’s conduct”).42
Blalock’s first argument regarding his sentence is that the trial court erred
in rejecting his proposed mitigator. But the aggravating and mitigating factors listed in
AS 12.55.155(c) and (d) apply only to cases governed by presumptive sentencing.43
Blalock was convicted of second-degree murder, a crime that is not governed by
presumptive sentencing.44 When a defendant is sentenced for second-degree murder, the
judge is authorized to impose any sentence within the range of imprisonment that the
legislature has established for that offense, regardless of whether aggravating or
mitigating factors are proved45
Although the presence or absence of statutory aggravating and mitigating
factors does not control a court’s sentencing authority for second-degree murder,
applying the factors by analogy provides appropriate “points of reference” for
determining “how a particular defendant’s crime should be viewed in comparison” to
similar crimes.46
In this case, because the aggravating and mitigating factors applied only by
analogy, the judge’s authority to consider this factor was not affected by whether it was
proved by clear and convincing evidence (as would be required if the factors were being

42 AS 12.55.155(d)(3).
43 Allen v. State, 56 P.3d 683, 684 (Alaska App. 2002).
44 See AS 12.55.125(b).
45 Allen, 56 P.3d at 684.
46 Id. at 685.
-21 -

2656

used to increase or reduce a presumptive term). Blalock’s arguments regarding the
proposed mitigating factor are therefore moot.47
In any event, in ruling on Blalock’s proposed mitigator, the trial court found
that Blalock disengaged from the argument, went back to his vehicle to arm himself, and
then re-engaged. The court further found that Blalock’s claim that he had been pinned
to the ground when he slashed and stabbed Tanape was not credible in light of Tanape’s
injuries. The trial court’s characterization of the offense, and its rejection of the
mitigator, were based on reasonable conclusions from the evidence.
Blalock’s second contention is that his sentence is excessive because it
exceeded the Page benchmark for first felony offenders convicted of second-degree
murder.48 Blalock notes that the Page benchmark is 20-30 years and that he received 15
years of active time above that benchmark.
But the Page benchmark applies only to first felony offenders.49 Blalock
had previously been convicted of felony assault, and he was on probation for that offense
when he killed Tanape. In fact, Blalock himself conceded at his sentencing that the
benchmark does not apply to his case. Accordingly, we reject this claim.
Blalock’s final contention regarding his sentence is that the trial court failed
to properly weigh the applicable aggravating factors and that it failed to consider
Blalock’s rehabilitation and mental health history. As we have explained, the judge’s
sentencing authority was not affected by the judge’s findings on the aggravating or

47 See id. at 685.
48

See Page v. State, 657 P.2d 850, 855 (Alaska App. 1983).

49 Felber v. State, 243 P.3d 1007, 1010 (Alaska App. 2010).
-22-

2656

mitigating factors, and the aggravators applied only by analogy. But in any event, we
conclude that the court adequately assessed the weight to give the aggravating factors.50
Determination of an appropriate sentence involves the judicial balancing
of potentially competing factors, of which primacy cannot be ascribed to any particular
factor.51 The “sentencing judge has substantial discretion when evaluating the priority
of the various sentencing goals and assessing the weight they should receive under the
facts of a particular case.”52
In crafting Blalock’s sentence, the trial court recognized that Blalock had
identified mental health issues, and it considered that factor in fashioning the appropriate
sentence. But the trial court also found that isolation was important because of Blalock’s
“significant” criminal and assaultive history. Blalock’s criminal history included
numerous misdemeanor assault convictions, a conviction for felony assault, several
harassment convictions, two convictions for criminal mischief, a conviction for child
abuse, and a conviction for violating a protective order.
The trial court found that Blalock’s criminal history demonstrated that
rehabilitation was unlikely. But because Blalock had done well in confinement by

50 The trial court specifically stated that it was giving aggravator (c)(4), the dangerous
instrument factor, “marginal” weight. The trial court considered Blalock’s probation status
under aggravator (c)(20) by imposing all the remaining suspended time — almost 2 years —
in the case for which Blalock was in violation of his probation. And the court discussed the
importance of Blalock’s prior assaultive history (aggravator (c)(8)) while evaluating the
Chaney criteria.
51 Id. (holding that a court must balance multiple objectives when sentencing a
defendant, including the goals of rehabilitation, isolation, deterrence, and community
condemnation).
52 Evan v. State, 899 P.2d 926, 931 (Alaska App. 1995) (citing Asitonia v. State, 508
P.2d 1023, 1026 (Alaska 1973)).
- 23 —

2656

having no documented disciplinary actions for the four years preceding sentencing, the
trial court also stated that it had “some marginal hope” for Blalock’s rehabilitation.
In reviewing a sentencing decision, this Court applies the “clearly
mistaken” standard of review. This test is based on the premise that reasonable judges,
confronted with identical facts, can and will differ on what constitutes an appropriate
sentence, and, so long as that sentence is within the permissible range of reasonable
sentences, it will not be modified by a reviewing court.53
After independently reviewing the record, we conclude that the sentence
imposed is not clearly mistaken.

Conclusion
The judgment of the superior court is AFFIRMED.

53 Erickson v. State, 950 P.2d 580, 586 (Alaska App. 1997).
-24-

2656

In the Supreme Court of the State of Alaska
Yoder Blalock,

Supreme Court No. S-17612

Petitioner,

Order

v.

Petition for Hearing

State of Alaska,
Respondent.

Date of Order: 4/1/2020

Court of Appeals No. A-12282
Trial Court Case No. 3AN-11-12129CR
Before:

Bolger, Chief Justice, Winfree, Stowers, Maassen, and
Carney, Justices

On consideration of the Petition for Hearing filed on 10/4/2019 and the
response filed on 2/6/2020,
It is Ordered:
The Petition for Hearing is Denied.
Entered at the direction of the court.
Clerk of the Appellate Courts
/s/ M. Montgomery
Meredith Montgomery
CARNEY, Justice, dissents. She would grant the Petition for Hearing on the
Miranda issue.
cc:

Supreme Court Justices
Court of Appeals Judges
Trial Court Judge
Distribution:
Email:
Friedman, Elizabeth D., Public Defender
Black, Ann B

V,

*

FN THE: COURT OF APPEALS FOR THE STATE OF ALASKA
YODER BLALOCK,
Appellant,

)
)
)

)
vs.
STATE OF ALASKA,

)
)
)

Appellee.

)

Court of Appeals Nos. A-12282; A-12301
Cl

Superior Court Case No. 3 AN-11-12129CR
APPEAL, FROM THE SUPERIOR COURT
THIRD JUDICIAL DISTRICT ANCHORAGE
THE HONORABLE JACK SMITH
OPPOSITION/REPLY BRIEF OF APPELLANT

i

I certify that this document and its attachments do not contain (1) the name of a victim of a sexual offense iistud in AS ! 2.61.140 or
(2) a residence or business address or telephone number of a victim of or witness to any offense unless it is an address used to identity'
the place of the crime or it is an address or telephone number in a transcript of a court taocecding anti disetosuw of rise information
was ordered by the court. 1 further certify, pursuant to App. R. 513.5, that the font used in this document if Times New Roman i 3
point.

<K

Dated this jSj day of December 2017
/*T'?

Elizabeth D. Friedman (Bar No. 9306027)
Law Office of Elizabeth D. Friedman
2773 Caroiee Court
Redding, CA 96002
(907)240-4507
Filed in the Court of Appeals
of the .State of Alaska this
"ZJrfh day of TbMM9cC&?'
Clerk ofAppe^^Cou^y

iu.

SUJ.
‘ C GjT

4

TABLE OF CONTENTS
m

Table of Authorities
I.
II.

CORRECTIONS TO STATE’S FACTUAL ASSERTIONS

1-

BLALOCK’S OPPOSITION TO STATE’S CLAIM THAT JUDGE SMITH ERRED
BY GRANTING BLALOCK’S MOTION TO SUPPRESS HIS STATEMENTS AS
VIOLATIVE OF MIRANDA
A

The State Misrepresents the Procedural Posture By Setting Up a Straw Man
and Countering. Arguments Blalock Never Made
2

B.

Blalock Was In Custody for Purposes of Miranda

C.

Blalock Was Subject to a Custodial Interrogation When Questioned about the
Whereabouts of His Truck Because the Truck Contained Evidence about the
4
Crime

D.

The State Raises “Anticipatory Invocation” for the First Time on Appeal.. 6

E.

The “Anticipatorily Invoking” Miranda Case Law the State Cites is Readily
7
Distinguishable from Blalock

3

1.

The federal case law does not support the state’s argument.

7

2.

Cases from other states fail to support the state’s argument,

13

3.

Alaska case law cited does not support the state’s argument,

14

/

F.

The State’s Argument That Blalock Failed to Communicate His Request So
That a Reasonable Officer Should Have Understood it Ignores the Facts and
the Superior Court’s Findings
15
1.

The Blalock evidentiary hearings are analogous to Adams v. State. 17

2.

The state’s reliance on State v. Garrison is misplaced

18

3.

Similarly, Giacomazzi and Hampel are inapposite

19

i

1

III.

REPLY TO STATE’S OPPOSITION TO BLALOCK’S OPENING BRIEF. ... 21
A.

Under Batts the Miranda violation was “Egregious”: Judge Smith’s Ruling
Was Erroneous
21
1.

The state’s “impossibility” argument is factually inaccurate

2.

The state mischaracterizes Blalock’s argument and failed to consider
the case law Blalock cited
22

B.

The Superior Court Erred by Failing to Include the 2013 Amendments to AS
11.81.335 in Jury Instructions
23

C.

Blalock’s Sentence Was Excessive

24

1.

24

2.

IV.

21

Imperfect self-defense mitigator was proven
' Blalock’s sentence was clearly mistaken

CONCLUSION

25
26

n

/

TABLE OF AUTHORITIES
I.

CASES
ALASKA CASES

Adams v. State, 390 P.3d 1194 (Alaska App. 2017)
Anderson v. State, 2013 WL 784895 (Alaska App. 2013),
Batts v. State, 195 P.3d 144 (Alaska App. 2008)
Beagle v. State, 813 P.2d 699 (Alaska 1980)

14,17,18
15
17,20-22
14

Buxton v. State, 2017 WL 1788386 (Alaska App. 2017)

6

Collins v. State, 977 P.2d 741 (Alaska App. 1999

6

Debeaulieau v. State, 2016 WL 4490805(Alaska App. 2016)

14

Gantv. State, 654 P.2d 1325 (Alaska App. 1982)

14

Giacomazzi v. State, 633 P.2d 218 (Alaska 1981

19

Hammonds v. State, 442 P.2d 39 (Alaska 1968)

6

Hampel v. State, 706 P.2d 1173 (Alaska App. 1985)

19,20

Hoffman Const. Co. of Alaska v. U.S. Fabrication & Erection, Inc., 32 P.3d 346 (Alaska
6
2001)
Hunter v. State, 590 P.2d 888 (Alaska 1979)

4

Johnson v. State, 328 P.3d 77 (Alaska 2014)

6

Kialook v. State, 1982 WL 889351 (Alaska App. 1982)

4

McConnell v. State, 991 P.2d 178 (Alaska 1999)

6

Mallottv. State, 608 P.2d 737 (Alaska 1980)

14

iii

f

Moreau v. State,588 P.2d 275 (Alaska 1978)

6

Moss v. State, 823 P.2d 671 (Alaska App. 1991)

4

Munson v. State, 76 123 P.3d 1042 (Alaska App. 2005).. .
Smith v. State, 38 P.3d 1149 (Alaska 2002)

15
4

State v. Anderson, 117 P.3d 762 (Alaska App. 2005)

15

State v. Chaney, All P.3d (Alaska 1970)

25

State v. Garrison, 128 P.3d 741 (Alaska App. 2006)

18

----Zurfluh v. State, 620 P.2d 690 (Alaska 1980)

23

f

OTHER STATE CASES
f

People v. Villalobos, 737 N.E.2d 640 (Ill. 2000)
State v. Chavarria-Cruz, 784 N.W.2d 355 (Minn. 2010)
Wilson v. Commonwealth, 63 199 S.W. 3d 179 (Ky. 2006)

13,14
22

13,14

FEDERAL CASES
Bobby v. Dixon, 565 U.S. 23 (2011)

11,12

California v. Beheler, 463 U.S. 1121 (1983)

4
i

I

Doe v. United States, 487 U.S. 201 (1988)

9

Edwards v. Arizona, 451 U.S. All (1981)

19,20

McNeil v. Wisconsin, 501 U.S. 171 (1991). . .
Michigan v. Jackson, 475 U.S. 625, 106 S.Ct. 1404 (1986)
Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602 (1966)

7,8

10
2,3-7,9-15,18-22,26
i

iv
i

i

i

Montejo v. Louisiana, 556 U.S. 778 (2009)

10,11

New Yorkv. Quarles, 467 U.S. 649 (1984)

4,5

Oregon v. Mathiason, 429 U.S. 492 (1977).. .

4

Pennsylvania v. Muniz, 498 U.S. 582 (1990)

8,9
9,10

Rhode Island v. Innis, 446 U.S. 291 (1980)

5

United State v. Knope, 655 F.3d 647 (7th Cir. 2011)
II.

CONSTITUTIONAL PROVISIONS, STATUTES AND COURT RULES
A.

CONSTITUTION
Fifth Amendment, United States Constitution

B.

STATUTES PRINCIPALLY RELIED UPON
AS 11.81.335 [current version]

ktw.
e\r

A£-k<

tr-

8,11,22

23

(b) A person may not use deadly force under this section if the person knows
that, with complete personal safety and with complete safety as to others being
defended, the person can avoid the necessity of using deadly force by leaving
the area of the encounter, except there is no duty to leave the area if the person
is
(1) on premises
(A) that the person owns or leases;
(B) where the person resides, temporarily or permanently; or
(C) as a guest or express or implied agent of the owner, lessor,
or resident;
(2) a peace officer acting within the scope and authority of the officer's
employment or a person assisting a peace officer under AS 11.81.380;
(3) in a building where the person works in the ordinary course of the
v person's employment;
\(4) protecting a child or a member of the person's household; or
~?((?fm any other place-where the person has a right to be.
A~-_AIU
AS 12.55.155

24
V

c^;

(/■

!

1

(d) The following factors shall be considered by the sentencing court if proven
in accordance with this section, and may allow imposition of a sentence below
the presumptive range set Out in AS 12.55.125:
(3) the defendant committed the offense under some degree of duress,
coercion, threat or compulsion insufficient to constitute a complete
defense, but that significantly affected the defendant’s conduct.

C.

ALASKA COURT RULES PRINCIPALLY RELIED UPON

Alaska Rules of Criminal Procedure
Criminal Rule 42

17

(k) Reconsideration. A motion to reconsider the ruling must be made within
ten days after the date of notice of the ruling as defined in Criminal Rule
32.3(c). In no event shall a motion to reconsider a ruling be made more than
ten days after the date of notice of the final judgment in the case.
Alaska Evidence Rules
Evidence Rule 412

20

Evidence illegally obtained shall not be used over proper objection by the
defendant in a criminal prosecution for any purpose except:
(1) a statement illegally obtained in violation of the right to warnings under
Miranda v. Arizona, 384 U.S. 436 (1966), may be used in
(A) a prosecution for perjury if the statement is relevant to the issue of
guilt or innocence and if the prosecution shows that the statement was
otherwise voluntary and not coerced; or
(B) any prosecution, to impeach the defendant, codefendant, or a
former defendant in the case who made the statement if the prosecution
shows that the statement was
(i) otherwise voluntary and not coerced; and
,

(ii) recorded, if required by law, or has been determined to be
covered by one of the recognized exceptions to the recording
requirement; and

(2) other evidence illegally obtained may be admitted in
vi

(A) a prosecution for perjury if it is relevant to the issue of guilt or
innocence and if the prosecution shows that the evidence was not
obtained in substantial violation of rights of the defendant; or
(B) any criminal action, to impeach the defendant, codefendant, or a
former defendant in the case, if the prosecution shows that the evidence
(i) was the product of a statement illegally obtained in violation
of the rightto warnings under Miranda v. Arizona, 384 U.S. 436
(1966); and
(ii) was not obtained in substantial violation of the rights of the
defendant, codefendant, or a former defendant in the case, as
appropriate.

vii

I

\r

d

1^
I.

CORRECTIONS TO STATE’S FACTUAL ASSERTIONS
The state exaggerates the tacts surrounding Blalock’s capture and the amount of “noise”

which ostensibly prevented the officers from hearing Blalock’s request for an attorney.
Blalock was arrested in the early morning hours on a snowy Sunday morning

!

down a side street in a residential neighborhood.

Therefore, the amount of

traffic noise would be negligible: the two audio recordings showed that Blalock
clearly invoked without any background effect.2
Although the superior court heard testimony in the abstract about how dangerous

!

the apprehension of a suspect was when it is an uncontrolled situation (i.e. not
a SWAT team planned assault), there was nothing factual in Blalock’s arrest
which resembled such a scenario.3
compliant with the officers’ requests.

Blalock was alone, unarmed, and thoroughly
V

The state fails to address the feet that Sergeant Sims - who admitted hearing

!

deficits and not hearing everything Blalock said - did not take the three minutes
necessary to review his audio recording and leam that Blalock had invoked.5
The state erroneously casts Blalock’s request for. an attorney as ambiguous when

!

1
2
3
4
5
6

Tr.
Tr.
Tr.
Tr.
Tr.
Tr.

1897; R. 198.
1801. .
1329-1334, 1780.
1907.
1932.
1801.
-1-

&

!

The state erroneously argues that the detectives did not have time to check the
audio recordings when the record shows that Blalock was not interviewed for
j-hours'after being taken into custody.

H.

BLALOCK’S OPPOSITION TO STATE’S CLAIM THAT JUDGE SMITH ERRED
IN GRANTING BLALOCK’S MOTION TO SUPPRESS HIS STATEMENTS AS
VIOLATIVE OY MIRANDA. 8
A

The State Misrepresents the Procedural Posture By Setting Up a Straw
Man and Countering Arguments Blalock Never Made.

The State begins its argument by stressing that the detectives who interviewed Blalock
properly administered Miranda warnings.9

But, Blalock never claimed that there was anything

deficient in what the detectives did, but rather that the detectives should never have approached

!

him because he invoked Miranda during a custodial interrogation prior to meeting with the
!

detectives. Further, APD failed to follow its own protocol by not passing the invocation up the
C__

chain of command-to the detectives.10
Blalock argued below that he invoked his Miranda rights with Sergeant Sims, not during
the interrogation with the detectives. At the trial court, Blalock filed a Motion to Suppress his
statements based on the feet that the audiotape clearly revealed that he asked for an attorney

t\cW»Vi

yw

7 Appendixto Ae. Br. at 1; see infra at Section ID.A. 1.
8 Miranda v. Arizona, 384 U!S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966).
^
9 Ae. Br. at 21 (commencing at Section C.).
((
10 See, Tr. 1258-59, 1379 testimony of officers regarding requirement to pass
invocation up chain of command; see also, Lt. Heniy testimony second evidentiary hearing.
(Tr. 1357 “if they [the officers] heard it [invocation], then they had a responsibility to
communicate that. There’s no question about that”)
-2-

v>

in response to Sergeant Sims questioning him about the whereabouts ofhis truck.11
Having set up a strawman, the State appends its own ad hoc supplement to the appellate
record, to show that the detectives adhered to Miranda and that Blalock consented to be
interviewed.12 The interview shows a plainly mentally ill Blalock decompensating and
barely able to track what the detectives are asking.13
Blalock extensively briefed the suppression issue below and never challenged what took
place at the detective interrogation, rather that the interrogation should not have taken place
because Blalock had requested counsel.14
B.

Blalock Was In Custody for Purposes of Miranda.

The superior court found that Blalock properly invoked his right to counsel and was in
custody:
. . . both a clear invocation of his right to counsel, as well as proper timing for said
invocation by defendant, considering he had called the police on himself admitted he
had stabbed someone and was being asked questions by the police while being cuffed
and ... under guard by two officers with drawn weapons.15
Custody for purposes of Miranda occurs where “a reasonable person would feel he was
not free to leave and break off police questioning.”16

Here, Blalock was handcuffed and

11 Tr. 1905.
12 Appellate Rule 210(a) and (i) sets forth the proper procedure to supplement the
record.
13 See, e.g. Ae. Br., Appendix I at 15-16, 26, 30.
14 R. 261-73; 199-202; 313-17; 321-31.
15 Tr. 2002 Citing Kawalock [sic - Kialook] v. State, 1982 WL 889351 (Alaska
App. 1982) and Moss v. State, 823 P.2d 671 (Alaska App. 1991).
16 Smith v. State, 38 P.3d 1149, 1159 (Alaska 2002) quoting Hunter v. State, 590
P.2d 888, 895 (Alaska 1979).
-3-

•0

guarded by two officers with drawn weapons while Sergeant Sims questioned him.
Blalock was not free to leave.

Obviously,

The United States Supreme Court holds that the “ultimate

inquiry” for police custody is “simply whether there is,,a ‘formal arrest or restraint on freedom
ofmovement’ of the degree associated with a formal arrest.”17.
Blalock’s invocation was not “anticipatory” - Sergeant Sims was interrogating him
about his truck which was involved in the crime, and Blalock did not want to divulge its location
so he asked to speak with a lawyer.18 -

loth; Sergeant Sims’, and Officer Nolder’s tape

recordings picked up Blalock’s request for a lawyer.19
C.

Blalock Was Subject to a Custodial Interrogation When Questioned about
the Whereabouts of His Truck Because the Truck Contained Evidence
about the Crime.
*

Asking Blalock about the truck was not an “administrative” query because the truck had
been actively involved in the confrontation between Blalock and the others, was the “get away”
vehicle, and was likely to contain evidence. The State cites New York v. Quarles™ and United
State v. Knope,21 for the proposition that “general” on scene questioning is exempt from
Miranda warnings. However, these cases do not apply to Blalock.
In Quarles, a suspect was apprehended in a super market, and the officer knew that the

17 New York v. Quarles, 467 U.S. 649, 655 (1984)(Powell, J., concurring) quoting
California v. Beheler, 463 U.S. 1121, 1125 (1983) (per curiam), quoting Oregon v.
Mathiason, 429 U.S. 492,495 (1977) (per curiam).
18 Tr. 1905.
19 Tr. 1905; R. 198.
20 467 U.S. 649, 658-59 (1984); Ae. Br. at 27.
21 655 F.3d 647, 652 (7th Cir. 2011); Ae. Br. at 27-8.
-4-

/

suspect had been armed with a gun and saw an empty gun shoulder harness when the suspect
surrendered.22 The officer asked Quarles where the gun was, and Quarles showed where he had
hidden it. The officer then read Quarles his Miranda rights.23 The state courts suppressed the
statement, but the Supreme Court carved out a public safety exception (exigency) to
Miranda?* Blalock does not present a public safety exception to Miranda.
Similarly, Knope is not persuasive because it is not analogous to Blalock??

In Knope,

there was no arrest with drawn guns and as soon as Knope asked for an attorney questioning
ceased.

The issue in Knope was whether asking him for his address prior to advising of

Miranda rights was cause to suppress statements.

The Court found that asking for a hone

address was not seeking an admission and was not an interrogatioa 26
D.

The State Raises “Anticipatoiy Invocation” for the First Time on Appeal.

The state - in two evidentiary hearings and multiple pleadings -27 never disputed that
Blalock was subjected custodial interrogation when he invoked his Miranda rights.

In the

superior court, the state assumed, as did the defense, that when Blalock was handcuffed and
being held at gunpoint and asked about his truck that he was subject to a custodial interrogation.
c~
Alaska cases hold as a general rule that,one cannot raise an issue for the first time on----

22
23
24
25
26
27

Quarles, supra, at 651-2.
Id. at 652i
Id. at 653.
Nor, as a Third Circuit case is it precedent for Alaska.
Knope, 655 F.3d at 652
Tr. 1892-1992., 2012-1437; R. 199-202,238-42,262-73.
-5-

A

appeal28

An exception under Criminal Rule 47(b) allows a defendant to raise plain errors or

defects affecting substantial rights for the first time on appeal.29

However, here, the state

makes the “no custodial interrogation” argument for the first time on appeal in contradiction
to the superior court’s findings and the record below.

This Court should find the issue waived

because it is raised for the first time on appeal
E.

The “Anticipatorily Invoking” Miranda Case Law the State Cites is
Readily Distinguishable from Blalock.

The State’s brief0 cites a plethora of case law purporting to support its proposition that
Blalock “anticipatorily” invoked his Miranda rights during his arrest and questioning by
Sergeant Sims. The cases cited are inapposite or else support the superior court’s findings that
Blalock was subjected to a custodial interrogation in violation ofMiranda.
1.

The federal case law does not support the state’s argument

28 See, e.g., Collins v. State, 977 P.2d 741, 750 (Alaska App. 1999) (finding that the
state raised a tactual issue for the first time on appeal and did not argue the case this way at
trial); see also, Buxton v. State, 2017 WL 1788386 at *1 (Alaska App. 2017) (suppression
issues cannot be raised for the first time on appeal) citing Moreau v. State,588 P.2d 275, 280
& n. 13 (Alaska 1978).
29 See e.g. Johnson v. State, 328 P.3d 77 (Alaska 2014) (allowing appeal of double
jeopardy violation); Hammonds v. State, 442 P.2d 39 (Alaska 1968). Civil case law provides
another exception: Hoffman Const. Co. of Alaska v. U.S. Fabrication & Erection, Inc., 32
P.3d 346, 355 (Alaska 2001):
In McConnell v. State, [991 P.2d 178, 183 (Alaska 1999)] we provided for an
exception to this waiver rule:
We will consider arguments not raised explicitly in the trial court ... if the issue
is 1) not dependent on any new or controverted fects; 2) closely related to the
appellant's trial court arguments; and 3) could have been gleaned from the
pleadings.
30 Ae. Br. at 25-28.
-6-

McNeil v. Wisconsin
The state’s reliance on McNeil v. Wisconsin31 is unsupported by its facts which are
inapposite to Blalock:

McNeil concerned the assertion of rights to counsel at a preliminary

hearing and whether invocation of those rights then covered other offenses unrelated to the
I

crime for which he had counsel McNeil was in custody and charged with an armed robbery
in West Allis, Wisconsin. He was represented by the public defender on this charge and had
a bail hearing. After the hearing, McNeil remained in jail where he was questioned by police
about a murder and related crimes in a different locale, Caledonia, Wisconsin.

The police

advised McNeil of his Miranda rights, and he signed forms waiving them, and made statements
incriminating himself in the Caledonia offenses.
statements was denied, and he was convicted.32
appeal and the U.S. Supreme Court affirmed.

His pretrial motion to suppress his
The Wisconsin Supreme Court denied his

The U.S. Supreme Court held that the sixth

amendment right to counsel is “offense-specific,” and that a defendant’s request for counsel
at an initial appearance on a charged offense does not constitute an invocation of his Fifth
Amendment right to counsel that precludes police interrogation on unrelated, uncharged
offenses.33

McNeil is not applicable because Blalock invoked during the initial arrest and only

one offense was at issue.
Pennsylvania v. Muniz

31 501 U.S. 171 (1991); AeBr. at25.
32 McNeil, supra, at 174.
33 Id. at 177-78.
-7-

Pennsylvania v. Muniz,34 not only fails to support the state’s positron but one of its
holdings supports Blalock.

Muniz concerns “incriminating utterances” not invocation of right

to counsel during custodial interrogation.

Muniz examined whether “incriminating utterances”

made while performing a series of sobriety tests, constitute testimonial responses to custodial
interrogation for purposes of the self-incrimination clause of the Fifth Amendment.35

Muniz

was asked to perform sobriety tests (walking a straight line, gaze test, and balance on one
leg).36 These tests and the videotape recordings were found to be nontestimoniaL
But, Muniz successfully suppressed his response to a question propounded to him
during the sobriety tests. Muniz was asked “When you turned six years old, do you remember
what the date was?’87

The Supreme Court held that this the answer to this question was

incriminating because of his answer’s content (he didn’t know the date) and that tiro trier of feet
could ascertain that his mental state was “confused. 5)38
[I]n order to be testimonial, an accused's communication must itself explicitly or
implicitly, relate a factual assertion or disclose information. Only then is a person
compelled to be a "witness" against himself39
The Muniz Court articulated the policies behind the ruling:
[Tjhese policies are served when the privilege is asserted to spare the accused from
having to reveal, directly or indirectly, his knowledge of facts relating him to the

34
35
36
37
38
39

498 U.S. 582, 601-02 (1990); Ae Br. at 25.
Id. at 585.
Id. at 586.
Id. at 592.
Id.
Id. at 589 {citing Doe v. United States, 487 U.S. 201, 210 (1988).
-8-

I

offense or from having to share his thoughts and beliefs with the Government. 40
This is directly on point for Blalock who asked for an attorney to “spare” him from having to
reveal to Sergeant Sims the location of his truck which linked him to the offense.
Rhode Island v. Innis
The issue in Rhode Island v. Innis41 was whether, after the suspect invoked his Miranda
rights, the conversation between two officers transporting him to the police station constituted
“a custodial interrogation” because Innis argued it was “subtle coercion” and equivalent to
“interrogation”'2 Innis was apprehended for a murder and a subsequent armed robbery in which
the weapon used was a shotgun.

While transporting Innis, two officers were conversing

amongst themselves and one officer told the other that he was concerned about a weapon being
left in the area because he knew that there was a school for “handicapped children” and was
fearful that children could be hurt if they found the weapon.43

Innis, upon hearing this, told the

police that he would tell them where the weapon was and then did so - after being re-advised
of his Miranda rights.
We conclude that the Miranda safeguards come into play whenever a person in custody
is subjected to either express questioning or its functional equivalent. That is to
say, the term "interrogation" under Miranda refers not only to express questioning, but
also to any words or actions on the part of the police (other than those normally
attendant to arrest and custody) that the police should know are reasonably likely to
elicit an incriminating response from the suspect. The latter portion of this definition
focuses primarily upon the perceptions of the suspect, rather than the intent of the

40
41
42
43

Muniz, supra, at 593 quoting Doe, 487 U.S. at 213.
446 U.S. 291 (1980); Ae Br. at 25. .
Id. at 296.
Mat294-95.
-9-

police.

A practice that the police should know is reasonably likely to evoke an incriminating
response from a suspect thus amounts to interrogation. 44
Blalock was subjected to “express questioning” - the whereabouts of his truck.
tried to elicit an “incriminating response” from Blalock.

The police

Innis supports the superior court’s

finding that Blalock was subjected to custodial interrogatioa
•

Montejo v. Louisiana45

Montejo revolves around the specifics of whether Miranda applies where counsel is
appointed at arraignment but where the defendant has not articulated that he wants counsel The
U.S. Supreme Court held that because Montejo had not said anything at his arraignment hearing
when the judge ordered appointment of counsel that he had not invoked his Fifth amendment
rights, therefore the police could obtain a valid Miranda waiver.46 Montejo is not ^analogous
to Blalock.

Blalock explicitly invoked his right to counsel and then when the police ignored

it Blalock was subjected to custodial interrogation by the detectives in violation of his
Miranda rights.
Bobby v. Dixon47
Dixon and his codefendant Hoflher murdered Hammer,.

Dixon stole Hammer’s identity

44 Id. at 300-01.
45 556 U.S. 778 (2009) {overruling Michigan v. Jackson, 475 U.S. 625, 106 S.Ct.
1404 (1986) (forbidding interrogation of a criminal defendant once he has requested counsel
at arraignment); Ae. Br. at 25.
46 Id. at 789.
47 565 U.S. 23 (2011) (habeas appeal); Ae Br. at 25-6.
-10-

I

and obtaining identity documents in Hammer’s name used the documents to sell Hammer’s car
;

<3

and to forge his name on a check to cash the sales money. 48
Dixon then had a chance encounter with the police when he went to the police station
to retrieve his own car which had been impounded. 49 The detective issued Miranda warnings
to Dixon and asked about Hammer's disappearance. Dixon invoked Miranda and refused to
answer questions without a lawyer and left the police station. Dixon was not in custody during
this encounter.50
The police then determined that Dixon had sold Hammer’s car and forged Hammer’s
signature.51

The police arrested Dixon for forgery five days after the first encounter.52

The

police then interrogated Dixon over several hours without Miranda warnings - intentionally
because they wanted him to talk.53 Dixon admitted to obtaining the identity in Hammer’s name
and signing Hammer’s nan® on the check, but said that Hammer gave him permission to sell
the car.54 Dixon denied knowing where Hammer was.55
That same day, Hoflher, cooperating with the police, showed them Hammer’s grave.56
Dixon learned that Hammer’s body was found and when the police brought Dixon to the

48

Id. at 25.

49
50
51
52
53
54
55

Id.
Id.
Id.
Id.
Id.
Id.
Id.

56 Id. at 26.
-IT-

police station that evening for questioning Dixon asked whether Hoflner was in custody and
i
Q

was told that he was not.57 Dixon told the police; that he had spoken to his attorney and that he

o

wanted to tell them what happened.58 Dixon was read his Miranda rights and signed a waiver.
Dixon admitted to the murder but tried to blame Hoffher.59
At trial, Dixon successfully suppressed the forgery confession and murder confession
but an interlocutory appeal allowed the murder confession to be admitted.60

*

The Supreme

Court found that the murder confession was admissible because there were Miranda warnings
and that Dixon's earlier statement that he wouldn’t talk to the police without a lawyer was done
when he was not in custody.

The earlier invocation was not valid because it anticipatorily

invoked Miranda so did not negate the valid Miranda warning^.67
Dixon is readily distinguishable from Blalock. Blalock was in custody when he asked
for a lawyer. The later questioning by the detectives was a few hours (not days) later and was
!

part of the arrest and charging. All of the officers questioned at the evidentiary hearing cited
APD policy that if a suspect invokes the right to counsel that this information is to be
conveyed to the detectives who will then not question the suspect.62
2.

57
58
59
60
61
62

Cases from other states cited fail to support the state’s argument.

Id.
Id.
Id.
Id. at 26-7.
Hat 31-2.
See, e.g. Tr. 1357(Lt. Henry’s testimony).
-12-

r

The state cites People v. Villalobos?3 and Wilson v. Commonwealth 64 in support of its
argument that one cannot anticipatorily invoke Miranda.65

Neither are analogous to Blalock.

Villalobos examined whether a defendant who fills out a form at a bond hearing stating that he
would not participate in questioning or other procedures “on any case or matter” without
counsel present has invoked Miranda for purposes of cases other than the one for which he
is being arraigned.66 Villalobos was arrested for cannabis possession, filed out the form, then
was linked to a murder and while in custody was questioned by the police (at which time , he
waived his rights).

The Illinois Court reasoned “the suspect must invoke the right to counsel

during custodial interrogation or when custodial interrogation was imminent.”67

This is

precisely what Blalock did - he invoked his right to counsel when Sergeant Sims questioned
him.
Similarly, Wilson v. Commonwealth is inapposite because Wilson invoked his right to
an attorney before he was placed into custody, so that no “custodial interrogation” was at issue
and his invocation was done anticipatorily.68
3,

Alaska case law cited does not support the state’s argument.

Alaska has no case law. on “anticipatorily” invoking Miranda.69

In the recent case,

63 737 N.R2d 640 (ID. 2000).
64 199 S.W. 3d 179 (Ky. 2006).
65 Ae. Br. at 26.
66 737 N.E.2d at 640.
67 Id. at 646.
68 Wilson, 199 S.W.3d at 178.
69 Westlaw search for “anticipatorily” in the context of criminal cases yielded parole
and probation revocation issues; see, e.g. Debeaulieau v. State, 2016 WL 4490805 *4
-13-

Adams v. State, the Court of Appeals declined to reach the issue because Adams subsequently
initiated discussion with a detective.70

Similarly, in Mallott v. State,71 the defendant made

incriminating statements during the course of a breathalyzer examination when he was not
being interrogated.72

In Beagle v. State73 the Court of Appeals found that the defendant’s

statements to the police were “general on-the-scene questioning” and did not qualify as
interrogation.74
State v. Anderson15 and Munson v. State76 are also inapposite. In Munson, the Supreme
Court reversed the Court of Appeals and suppressed the defendant’s confession finding that
Munson had unambiguously invoked his right to remain silent, and the police failed to honor
it.77

In Anderson, the Court of Appeals examined whether use of a “false friend” (informant)

to obtain information from the jailed defendant regarding a separate robbery and homicide and
found that this was not a “custodial interrogation. 5*78
Summary: Blalock was in custody for purposes of Miranda and was subjected to
custodial interrogation. The authority the state cites foils to show otherwise.
F.

The State’s Argument That Blalock Failed to Communicate His Request

(Alaska App. 2016) citing Gant v. State, 654 P.2d 1325, 1326-27 (Alaska App. 1982).
70 390 P.3d at 1200.
71 608 P.2d 737 (Alaska 1980).
72 Id. at 741.
73 813 P.2d 699 (Alaska 1980).
74 Id. at705T06.
75 117 P.3d 762 (Alaska App. 2005)
76 123 P.3d 1042 (Alaska App. 2005).
77 Id. at 1054-55.
78 Anderson, supra, at 763-66.
-14-

So That a Reasonable Officer Should Have Understood it Ignores the Facts
and the Superior Court’s Findings.
The state argues that Judge Smith’s suppression decision was incorrect; however, the
state ignores the evidence before Judge Smith when he made the decision at the vfirsF~^~>
evidentiai^ heanng in 20l2.T9 ~ The state’s legal argument about the need for suspects to
articulate requests for a lawyer in a way that can be' “reasonably understood” by police is
unmoored from the tacts in Blalock?0

Blalock requested an attorney in the most simple

straightforward language possible: “I want to talk to a lawyer.”®1 _ At the first evidentiary
hearing, the superior court heard the audio recordings from Sergeant Sims and Officer Nolder
and found that Blalock’s request to speak with an attorney was “clearly stated” in both
recordings.82

The state never requested “reconsideration” of Judge Smith’s decision untiT mid-

p-——

urial at the second evidentiary hearing over two years later.83
The state obfuscates by confounding the evidence from the first evidentiary hearing with
Dr. Craig’s expert testimony at the second hearing. At the first hearing, Judge Smith had three
witnesses - Sergeant Sims, Officer Senoran and Detective Gilmour. 84

Judge Smith took

testimony and listened to the two audio recordings from the scene and found that Blalock’s
statements should be suppressed but that they could be used for cross-examination purposes.85

79 Tr. 1892 et. seq.
Ae Br. at 29
81 Tr. 1905.’
82
Tr. 1999.
83 The first evidentiary hearing was in July 2012 and the second inAugust2014.
84
Tr. 1894-1965.
85 Tr. 1996-2005; R. 198.
80

-15-

Given the evidence before Judge Smith at the first evidentiary hearing, Judge Smith
correctly suppressed Blalock’s interview with detectives Gilmour and Jakeway. It was only at
the second evidentiary hearing where Judge Smith heard testimony from the state’s expert, Dr.
Craig, and that he found a “natural neuropsychological’ S6 reason why the officers foiled to
comprehend Blalock’s request for counsel despite it being clearly picked up on the audio
(

recordings.87
The issue at the second evidentiary hearing (on remand from interlocutory appeal) was
whether there was evidence to support a finding that the officers’ behavior was “egregious”
under Battd** which would require suppression of Blalock’s statements for cross-examination
At the second evidentiary hearing, the superior court denied the state’s request to reconsider
its August 2012 sxppression ruling finding that Criminal Rule 42(k) bars late consideration89
The superior court made findings that the officers’ behavior was not “egregious” - the decision
that Blalock now appeals.
The State’s cross-appeal should be denied because it foiled to timely request
reconsideration of Judge Smith’s suppression decision and foiling to object did not preserve
the issue for appeal. Blalock further argues that Judge Smith correctly decided to suppress the
statement based on the facts at the first evidentiary hearing but that Judge Smith should have
made additional foldings and that failure to suppress Blalock’s statements for purposes of

86

Tr. 1458.
87 See, At. Br. at 17-18 (discussing Dr. Craig’s testimony).
88
Batts v. State, 195 P.3d 144 (Alaska App. 2008).
89
Tr. 1786.
-16-

i

I

i
I.

I

!

cross-examination was error.
1.
l

The Blalock evidentiary hearings are analogous to Adams v. State.90

In Adams, the superior court heard testimony at an evidentiary hearing that Adams
invoked his right to counsel with the patrol officers (who apprehended him), and therefore the
subsequent interrogation by the detectives (claiming they were just “verifying” that he had
j

invoked the right to counsel) violated of Miranda and was suppressed. 91 Subsequently, it was
revealed that the detective who testified at Adams’ evidentiaiy hearing was misinformed Adams’ request for counsel was made to a hospital employee although the patrol officer
overheard it. 92 The Court ofAppeals held
Thus, even though there may be reason to doubt the superior court's finding of feet, we
must proceed under die assumption that the court’s finding was correct93
The Adams Court did not reach the issue of whether the statement about wanting a lawyer
(although not made in custodial interrogation) was valid, because Adams had voluntarily
requested to speak with one ofthe detectives.94
Bklock’s M/ra«^a ri0its were violated/ and Judge Smith correctly suppressed his
statements.
2.

90
91
92
93
94

The state’s reliance on State v. Garrison is misplaced.

390 P.3d .1194 (Alaska App. 2017)
Id. at 1200.
Id.
Id.
Id.
-17-

o

State v. Garrison9S concerned a defendant interviewed by the police while not in
custody for purposes of Miranda96 Garrison examines whether a suspect can invoke his sixth
amendment rights to counsel during the investigatory phase of a case. Even though Garrison’s
counsel notified the police that Garrison was represented by an attorney, the police were
allowed under state and federal law to continue an investigation and question Garrison if he
agreed to speak with them.97

Garrison is not applicable to Blalock because Blalock was

subjected to a custodial interrogation and invoked his Miranda rights by requesting counsel
3.

Similarly, Giacomazzi and Hampel are inapposite.

Giacomazzi v. State, 98 presented a threshold question of credibility: Giacomazzi
testified at an evidentiary hearing that he had invoked his right to counsel by asking about the
availability of an attorney, and the officer, Lieutenant Olson, contradicted this claim.99
trial court found Lieutenant Olson to be more credible. 100

The

The Supreme Court found that the

trial court had to “choose between the conflicting testimony,” and found “no basis to overturn
its choice.”101

The Giacomazzi decision emphasized that a defendant can indicate that he

wishes to invoke the privilege by means other than an express statement, and that the state has
to meet its ‘heavy burden” of showing that the defendant has made a “knowing and intelligent”

95 128 P.3d 741 (Alaska App. 2006).
96 Id. at 746-47.
97 Id.
98
633 P.2d 218 (Alaska 1981).
99 Mat220-21.
100 Id.
101
Id. at 222.
-18-

i

waiver.102

Justice Rabinowitz’s dissent103 reviews Edwards v. Arizona104 (then recently

decided) and analyzing some of the equivocation in the superior court’s factual findings
emphasized that police cannot “cure[ ] an error” by ignoring a “casual inquiry” about a lawyer
by subsequently reading Miranda rights. 105

Justice Rabinowitz emphasized that Edwards

created a “per se rule” that once a subject invokes Miranda rights that no further interrogation
can take place unless the subject initiates the communicatioa 106
Hampel v. State, 107 supports Blalock’s positlon~tHat law enforcement carmot ignore a
^request~T6T~c o urise 1 and that the) “guise of clarification of ambiguous requests” does not allow
coercioa
!

1

Hampel requested an attorney, and the interrogating officer talked him down from

this request with coercive questioning and statements. 108
This is not to say that an interrogating officer may utilize the guise of clarification as
a subterfuge for coercion or intimidation. 109
The Court of Appeals reversed Hampel’s convictioa
The State ignored that both Hampel and Giacomazzi pre-date the legislative changes

i

to Evidence Rule 412 that Batts v. State110 interpreted.

The changes allowed the use in

impeachment of statements made in violation of Miranda rights unless the “Miranda violation

102

Mat 221-22.
Id. at 225-27.
104
451 U.S. 477, 101 S.Ct. 1880, 68 L.Ed.2d 378 (1981).
105
Giacomazzi, supra, at 226.
106 Id.
107
706 P.2d 1173 (Alaska App. 1985).
108
Mat 1182
109
Id. quoting Giacomazzi , 633 P.2d at 222.
no 195 P.3d 144.
103

-19-

was either intentional or egregious.

Hie issue in Blalock is whether the violation of his

Miranda rights was “egregious” because his invocation was clear and unambiguous and
registered on two officers’ audio tapes.112
m.

REPLY TO STATE’S OPPOSITION TO BLALOCK’S OPENING BRIEF.
A.

Under Batts the Miranda violation was “Egregious”:
Ruling Was Erroneous.
1.

Judge Smith’s

The state’s “impossibility” argument is factually inaccurate.

The state argues that it would not have been possible for Sergeant Sims to review his
tape because he “did not go off duty until 9:00 a.m, many hours after Blalock was taken into
custody. ?ai3 However, the transcript of the detectives’ interview with Blalock which is attached
as an “appendix” to the state’s brief shows that the /detectives began interviewing Blalock at
v

T0:45 a.m. 114

7

Sergeant Sims had ample opportunity to review the three minute audio of his

interaction with Blalock before the detectives began the interrogation.
Hie record shows that Officer Gilmour arrived at APD headquarters around CSffO a.raT115 - 7
and the other mid- shift officers finished abou£9^0ChnnT^
Additionally, a quick replay of a recording does^not^equire ah officer to be leaving
shift. If there is a question about what a suspect said while being taken into custody, a quick
—

■

•

replay should alleviate questions and allow the officer to follow policy and._report an
111
112
113
114
115
116

Id. at 158.
Tr. 1801; See, discussionat At. Br. 29-31.
Ae. Br. at 39 citing Tr. 380.
Appendix to Ae. Br. at 1 (“...time approximately 10:45 by my watch”).
Tr. 1947.
Tr. 1935.
-20-

i

•
j

invocation 15) the chain of command.
The state’s argument that Blalock is putting onerous requirements on the police is
mistaken: Blalock argues that if a recorded request is clear than the “reasonable officer” is
tasked with hearing and understanding it even if it requires a quick replay of an audio tape.117
1

■ 2.
i

The state mis characterizes Blalock’s argument and failed to consider the
case law Blalock cited.

The state failed to address the Minnesota Supreme Court decision, State v.
Chavarria-Cruz, 118 which Judge Smith relied upon in his initial suppression decision119 and
Blalock relied upon in his opening brief

In Chavarria-Cruz the suspect was being

interrogated and asked for an attorney in a soft voice — which the officer testified he did not
hear. 120

The Chavarria-Cruz court applied an objective standard which relied on the feet that

the tape recording picked up the invocation.

In Blalock two recordings picked up the

invocation.
The state also mischaracterizes Blalock’s argument as a “novel expansion” of
Miranda}21

Blalock’s argument is that Batts requires a “reasonable” officer standard and

that Alaska has broader Fifth Amendment rights than afforded under the federal
constitution.122

Blalock, in the spirit of Miranda focus on changing police behavior, urged

this Court to adopt policies that will shape police behavior: in a world where technology be
i

!

117 See, At. Br. at 29-31.
118
784 N.W.2d 355 (Mina 2000).
119
R. 327.
120
Id. at 359-60.
121 Ae. Br. at 39.
122 At. Br. at 28-31.

V
-21-

.

it video or audio recordings are ubiquitous the poEce must be tasked with incorporating
their technology into their poEce practice in order to guard the rights of suspects, /if the

j

^polce use the technology to gather evidence to charge and convict, there must be procedural
safeguards adopted by the judiciary to support the rights of defendants.
B.

J

The Superior Court Erred by Failing to Include the 2DT3 Amendments—>
to AS 11.81.335 in Jury Instructions.

Blalock argued in his opening brief that the sponsor of HB 24 (the bifl amending AS
11.81.335) stated that the bill ('“clarifies” existing rights?

Additional expressions of

legislative intent included in the record also show that the intent was to p“clari(y”~rights )
rifHfiEcifin existing law?23
The authority the state cites appEes in general to legislative enactments.124 However,
the state fails to address that ■^jggka case law supports retrospective application~~of~an~^~-)
the~law7125) The amendment to AS 11.81.335(b) was a clarification

rf

of an affiimative defense and hot a change in a penalty or the definition of a crime.
Aside from Representative Gara’s somewhat ambiguous statements cited by the state,
the legislative history expresses that the intent and scope of the amendment was meant as
[ji clarification of existing law. 126

—

J

Failure to include the affirmative defense in the jury instructions was critical to
^Blalock’s defense because the prosecution emphasized
123
124
125
126

that Blalock had multiple

R. 4-5 and Exhibits to Defendant’s briefing below at R, 16-35.
See, Ae. Br. at 40-2.
See, Zurfluh v. State, 620 P.2d 690 (Alaska 1980).
At. Br. at 36; R. 23-6.

!

I
i

-22-

/

iniVir lTf
.

ver)'

v.V

FtknJ

^ Vc-f
^xSv/r^ — z
opportunities to withdraw/ md feiled>fo■q_do so. 127 As detailed in Blalock’s opening brief the

'—

\v

Ay .

jury was confused about the issue”arid asked for review and further clarification i28r
Blatock urges this Court to reverse the conviction because the jury instruction

fSSr. or
. to retreat%\ f c l w
without the fHB 24 amendment was prejudicial, and the clarification of the Aduty
^M^%evised language would have led to acquittal

2&ri

I

C.

■V.

3 /^ 'Y

f vjJtV

tr

Blalock’s Sentence Was Excessive.
1.

Imperfect self-defense mitigator was proven.

The state ignores that the superior court foiled to factor in Blalock’s severe mental
”|a^^irg^fight in assessing the

illness and documented history of having been
“imperfect self-defense” (AS 12.55.155(d)) argument. 129

te7 *'
It was undisputed that Blalock was

mentally 1 - it took two years for him to stabilize enough to participate in trial and
even then it was only with a cocktail of antipsychotic medication
Cogentin, and Paxfl.130

— lithium, Zyprexa,

nv(,i~V
%
\Vh
CudML

Blalock was diagnosed with hallucinations both visual and auditory

while incarcerated as well as
Blai

yvnf^r

6pm abuse as a child and adult.
slfllllln the fight and his perceptions of his options, while

perhaps not meeting the standards for self-defense for a person of normal capacities, should
have been considered as “imperfect self-defense.”

The superior court erred by treating

Blatock’s reactions as if he were a person of sound mental capacities without a hisftu

127 Tr. 1688.
128
See, At. Br. at 37-8.
129
Ae. Br. at 44-5.
130
R. 1308. See At. Br. 41-2 (discussingBlalock’s API evaluation).
-23-

HET)

*
*,

/■ severe victimization both as a child and adult.131
At sentencing, Blalock presented compelling evidence of the AS 12.55.155(d)(3)
mitigator:

Blalock’s evidence met the “clear and convincing” standard although this was not

required where sentencing is not presumptive.

This Court should remand for resentencing
o£ £10 7***- fir pur\
Cvf-jr on
apptying the mitigator for imperfect self-defense.
ir
ZO
fV
CS'L I
/?
7^/x Y**rT
2.
Blalock’s sentence was clearly mistaken.
The Chaney132 factors are designed to allow an individualized assessment when
sentencing.

V

|

Here the superior court sentenced Blalock ignoring the severity of TtisAhentar ~ Jtylu.k’c

j-flh^ilanH^inplicitfy blaming Blatock for failing to have treatment)

This Court should note

that Blalock was on unsupervised felony probation when the crime took place: had Blalock
;

been on supervised probation he could have gotten referrals to deal with his chronic mental
illness. The superior court found that Blalock was “dangerous when untreated”133 but did not

S?d{A^ / ou

factor in why he was untreated or give any credence to Blalock’s four years of compliance
i

while incarcerated.

The court did not consider rehabilitation: it ignored Blalock’s mental

illness and how Blalock stabilized once property medicated.
This Court should find Blalock’s sentence is excessive and should remand for
resentencing with directions to assess rehabilitation potential given Blalock’s mental illness

i

and response to treatment.

131 R. 1200-03.
132 State v. Chaney, 477 P.3d 441 (Alaska 1970).
. 133
Tr. 1873-74.
-24-

I

V

IV.

CONCLUSION
Appellant Yoder Blalock urges this Court deny the state’s challenge to Judge

Smith’s decision to suppress his statements (first suppression decision). Appellant Blalock
reiterates that this Court should overturn his conviction based on Miranda violations and
violations of his rights to due process and a fair trial for failure to instruct the jury on the
i

duty to retreat.

i

Alternatively, Appellant Blalock requests a remand for new sentencing.

Dated this (^day of December, 2017.

' i

Elizabeth D. Friedman (OPA Appointed)
Alaska Bar No. 9306027
Attorney for Appellant Yoder Blalock

-26-

\

IN THE COURT OF APPEALS FOR THE STATE OF ALASKA
Yoder Austin Blalock

)
)

Appellant/Cross Appellee, )
vs.

)
>

Court of Appeals No. A-12282 & A-12301
Trial Court Case No. 3AN-11-12129CR

)

STATE OF ALASKA,
Appellee/Cross Appellant.

)
)
)

O)

<o

00
<M

PETITION FOR REHEARING
APPELLATE RULE 506

6

O
00

S'
oo

si
c:

CD

6

■Q

•g
u.
Ci
S
2

-2
t CN
CD 3 O

VRA AND APP. R. 5)3.5 CERTIFICATION

i

I certify that this document and its attachments do not contain (!) the name of a victim of a sexual offense listed in AS
12.61.140 or (2) a residence or business address or telephone number of a victim of or witness to any offense unless it is
an address used to identify the place of the crime or it is an address or telephone number in a transcript of a court
proceeding and disclosure of the information was ordered by the court.

o
CD
U-

O c;
CO CD

T :§
o c

o

C\) nj

Cu O § £ I

Appellant, Yoder A. Blalock, through counsel Elizabeth D. Friedman (OPA

^ CD

°
^^^S
CD O SJ CD CD

i6 .TO CD § g

—I CM

contractor), petitions for rehearing pursuant to Appellate Rule 506(a)(2) and (3).
A.

Under AR 506(a)(2) the Court Misconceived a “Material Fact” Because
the Court’s Factual Summary Failed to Accurately Portray the
Altercation Where Blalock was Accosted by Three Men.

The Court of Appeals presented a truncated version of the altercation between Yoder
Blalock and the three men who accosted him on a dimly lit street. The Court’s account fails
to explain that Blalock had neutral encounters with the decedent and his friends earlier in the

Blalock v. Slate, Court of Appeals A-12282, A-12301

Page 1 of 5

evening and was common-law in-laws with one of them.1 The background of the evening
also includes that a woman, Amy Chagluak. associated with Tanape and his friends had
earlier accepted a ride from Blalock. Amy became uncomfortable and asked Blalock; to
return to the apartment using a ruse that she was going to get her cigarettes. Blalock was
waiting in the street in his truck for Arny when the encounter with the three men began2
These events occurred after a night of heavy drin king - Alexie (one of the three) was
<y>

co
co

so intoxicated that the police let him sleep for three hours before they could interview him.3

C\J
O
O
00

0?
oo
C
<0

6

§2.

Prior to the encounter, Blalock was the victim of a terrible assault and was terrified

Ito

of being knocked to the ground as in the previous assault where he suffered an intercranial

o
co
U.
NT |

•g
u.
d

S <D

£0)

21

tjSSS s
§88gt
©
.3?

Tanape, the decedent, was intoxicated and multiple shots of pepper spray did not deter him.4

O? <a)
5

8 e°.§4
s£
O) § c

o o .g «. 2

bleed and a “significant” nasal and maxillary sinus fracture and deformity among other
injuries.5 When Blalock was taken to the ground by Tanape, he reacted out of terror by
slashing with his knife.6 Although Tanape had multiple superficial wounds, the cause of
death was a single stab wound to a lung,7 not multiple wounds as the Opinion states.8

1X1 ^ $ £ t
CM

The context of this encounter is critical to document in a published opinion because
1

Blalock had a child with Alexie’s cousin and had lived in Alexie’s home village.
Newtok. At. Opening Br. at 2; Tr. 494.
2 At. Opening Br. at 2-4.
3 At. Opening Br. at 5; Tr. 562-63: 815-16, 825-26.
4 At. Opening Br. at 4; Tr. 1504.
5 At. Opening Br. at 42-3.
6 Id.
7 At. Opening Br. at 5; Tr. 390-91 , 590, 711-12,
8
Opinion at *4.
Blalock V. State, Court of Appeals A-12282, A-12301

Page 2 of 5

Blalock’s parole board will review it and will assess him in light of “facts” which fail to
account for the circumstances surrounding the events.
B.

Under AR 506(a)(2) and (3) the Court Misconceived a Material Fact and
Material Question in Conjunction with Its Batts Analysis.

The Court of Appeals mistakenly states that the on-scene officers in this case had not
downloaded the audio of their contact with Blalock when the detectives began Blalock’s
interrogation.9 However, Appellant’s brief and the record show that Sargent Sims - the
05

to

arresting officer to whom Blalock made the request for an attorney - downloaded his digital

00
CM

o

Q
00

recording to the APD evidentiary server prior to leaving his shift at 9:00 a.m. the morning

S'
co

8.

I■8

o
<0

t'l

LL

There was no practical reason why the detectives could not have reviewed Sergeant

O

Ci
£

w <d

T §

G>

-q't:

of the arrest.10 The detectives began Blalock’s interrogation and hour and a half later. ! I

.§
55

cm

O c

Sims’ audio tape or the tapes of the other officers all of whom were required to download

q

Isisi

their records prior to leaving their shift. Blalock’s arrest was a brief encounter and took

° 15

a pC © (0

£
<5 c* § 1
o o ,s -c g

place with no struggle or other incident.

un'D ns

a K -g .a

-J Cs|

This is material to the analysis: there is a policy question about whether officers
conducting an interrogation should be required to review the audio/video materials taken by
other officers prior to commencing an interrogation. All of the officers testified at the
evidentiary hearings that they did not perceive (hear) Blalock’s request for an attorney
because - as the expert psychologist opined - of intervening stimuli and divided attention.

9 Opinion at *14.
10 At. Opening Br. at 27; Tr. 1927, 1935.
n At. Opening Br. at 27; Tr. 1950 (Blalock’s interrogation began after 10:30 a.m,).
Blalock v. State, Court of Appeals A-12282, A-12301
Page 3 of 5

Assuming arguendo that the psychologist’s analysis is correct, then police procedures
should compensate for human frailty by requiring the officers who conduct interrogation of
suspects to review the audio or audio/visual recordings made during an arrest. The
technology is designed to create an objective record of what takes place during a law
enforcement encounter. Here, the superior court found that Blalock’s invocation of his rights
were “clear as a bell on the audio tapes. s; 12
This Court should re-evaluate its (unsupported) conclusion that it is too onerous a

Ol

<o
oo
Osl

burden to place on law enforcement to require use of the very technology designed to create

o
O

oo

S'
c

03

t

00

safeguards for suspects and law enforcement alike.

.6

interrogating Blalock: he was in custody, the victim was deceased, and the witness was in

8<0

•D

<b

Here there was no urgency to

ti­

ll-

ci

§1

an alcohol-induced sleep. There was no “exigent circumstances” to justify not taking 10 or

S? c

15 minutes to review the audio recordings on the police evidentiary server.

II

£

CD

SjSSSl §

f

Qi _. O) '

? -S-S
^
O U ®

ie
cS § |
o o .£ -c 2
c-i "5 a 5
^ si ta 5? "o
—J Cm

c.

15

Under AR 506(a)(3) the Court Misconceived a Material Question in this
Case.

The Court of Appeals in a footnote attributes the analogy to the United States
Supreme Court decision in Arizona v. Roberson13 as Blalock’s “argument.”M In fact, it was
the superior court that utilized Roberson in its analysis of whether an invocation made to one
set of officers is binding on subsequent interrogating officers.13 The superior court was

12
13
14
15

At. Opening Br. at 25; Tr. 1801.
486 U.S. 675, 687-88 (1988).
Opinion at * 15 fn. 23.
See. At. Opening Br. at 27-8.

Blalock v. Slate. Court of Appeals A-12282. A-12301
Page 4 of 5

examining the policy of the exclusionary rule which is to change “substandard police
behavior and policies.”16 The analogy is applicable to a Miranda analysis as well as a Baits
analysis as both concern creating standards and sanctions to guide police behavior.
In the Batts situation, as in Miranda, the policy is for the standards to guide law
enforcement to preserve a suspect’s rights to remain silent and to assistance of counsel . In
Blalock the officers who testified at the evidentiary hearing - from the command officer to
o>
<o

the line officer - were fully cognizant that their attention was divided when they were in the

6

process of arresting a potentially violent suspect whilst listening to radio traffic and

S'
03
S2.

coordinating with their fellow officers. Given this recognition of “divided attention” the

.§

55
o

policy should reflect the realities of police work with the complexity of modern technology

n s
o c-

and should require the review of recordings prior to interrogation of a suspect

CO
c\f

o
oo

C
to

£

"o

•g

u.
ci

e*.
: >
UO Q>

T
Q)
O
•g t;
^
S
=s
S
<
n
-N o o -

•.§
7s
o
to
^

Respectfully submitted this

2jJyd&y of October, 2019

£Q ° S S'!
8 S ° s ts
ti
§ £ -o
-g

Elizabeth D. Friedman (OPA Contractor)
Alaska Bar No. 9306027
Attorney for Appellant Yoder A. Blalock

-4 f\l

Certificate of Service
1 certify that a true and correct copy of the foregoing was mailed via first class mail to:
Ann B. Black, Assistant Attorney General
Office of Criminal Appeals
1031 West 4th Avenue, Ste 200
Anchorage, AK 99501
Dated:

By:

16 Tr. 1807; At. Opening Br. at 27.
Blalock v. State, Court of Appeals A-12282, A-12301
Page 5 of 5

IN THE COURT OF APPEALS OF THE STATE OF ALASKA
YODER AUSTIN BLALOCK
Appellant,
Court of Appeals No. A-12282

vs.
STATE OF ALASKA,
Appellee.
Trial Court No. SAN-11-12129CR

RESPONSE TO PETITION FOR REHEARING
tn0'COnBln C> "*

Victim

Following a jury trial, Yoder Blalock was convicted of second-degree murder for
killing Nathan Tanape. At trial, Blalock asserted self-defense but the jury rejected this
fl

defense and, at sentencing, the judge rejected Blalock’s proposed “imperfect self-defense”

r-

o\
vo

I

ro

o

o

i®
>
C' o

“

M o

M

.»

>o. .& © q

m

2

■E

g^ _ p j

^ sf

* I)

os
I -I <»s ^
«•* o

^ 2 cfi a

VO s
® 8 *1 «
cEr<P
o '5
« o S Os
E
2u
|
“
as
o.
Q

mitigating factor, affirmatively discounting Blalock’s version of the

incident (that he was
attacked by multiple people and pinned to the ground when he stabbed Tanape)
. Before
and during trial, Blalock moved to suppress the statements he
made to the police, alleging
they were obtained in egregious violation of Miranda v. Arizona, 384 U.S. 436,444 (1966)
Edwards v. Arizona, 451 U.S. 477, 484-85 (1981), and Staie v. Baits, 195 P.3d 144

, 160
(Alaska App. 2008). The trial court ultimately permitted the State to introduce Blalock's

statements when cross-examining him; this Court affirmed that ruling. Blalock v. State,
P.3d —, 2019 WL 4725166, at *1-2 (Alaska App. Sept. 27, 2019).
Blalock now seeks rehearing, asserting this Court misconceived
material facts
When summarizing Blalock's offense and when resolving his Bans claim.
Blalock also
argues this Court misconceived a material question when rejecting Blalock's argument that
this Court should adopt a new rule requiring that, before interviewing a defendant, the

interviewing police officers must review every on-scene officer’s audio and video
recordings. For the reasons stated herein, this Court should deny Blalock ’s petition for
rehearing.
First, this Court did not misperceive any material facts when setting out the
relevant details of Blalock’s offense. Blalock claims this Court “presented a truncated
version” of Blalock’s offense, and this “version” could mislead Blalock’s parole board.
Blalock’s claims are unavailing for two reasons.
The factual, procedural, and legal background relevant to Blalock’ s claims—
which this Court set out in 11 pages of the slip opinion—was in no way misleadingly
“truncated.” See Blalock v. State, Nos. A-12282 & A-12301, Slip Op. 2656,

at 1-11 (Alaska

App. Sept. 27, 2019). Certainly, this Court summarized the 14 days (and

more than 1500
pages) of testimony describing Blalock’s crime and arrest. Compare Blalock, 2019 WL

£
a

©V
VO

cn

o

« » o

£ o

cn

4725166, with Tr. 196-1762. But this Court thoroughly addressed all of the factua
circumstances necessary to fully address each of Blalock’s claims, and to provide any

eo

II2s£i
a a- 55 >0 0,

x ^ i % * <§
u s §*£ &
> £ 5 - o .S
5 -c < ® « ti

reader with context sufficient to understand the bases for this Court ’s rulings. In fact, this
Court’s recitation of the relevant facts iis more than twice the length of the summary
contained in the pre-sentence report, which was specifically prepared to assist the
sentencing judge and parole board. See, e.g., Davison v. State, 307 P.3d 1, 3 (Alaska App.

S
a
P

E

hi

LU

2013). And contrary to Blalock’s unsupported claim, the “version of events contained in

JS

o_

the presentence report,” not this Court’s published opinion, “often becomes the ‘official
version’ of the defendant’s crime, and future decisions ..
■ are sometimes made in direct
reliance on the factual accuracy of the report.” Davison v. State, 307 P.3d 1,
3 (Alaska App.
2013). Yet Blalock did not on appeal challenge the content of the presentence
report.
Also, Blalock’s claim that this Court mi
misperceived material facts related to
Blalock’s offense is unavailing because it is based on viewing the evidence
2

in the light

1

| most favorable to Blalock. That is, Blalock’s current argument is based on crediting his
self-serving version of the murder—a version both the jury and the trial judge discounted
when they rejected his self-defense theoiy and his proposed “imperfect self-defense”
mitigating factor. And when assessing (1) Blalock’s challenges to the judge’s ruling on the
suppression motion, (2) the judge’s rejection of the proposed mitigating factor, and (3) the
judge’s analysis of an appropriate sentence (based on the totality of the circumstances
surrounding Blalock’s crime), this Court correctly viewed the evidence in the light most
favorable to upholding the judge’s rulings and assessed the rulings for clear
error. See
Munson v. State, 123 P.3d 1042, 1045-46 (Alaska 2005) (stating standard for reviewing
ruling on motion to suppress); State v. Parker, 147 P.3d 690, 694 (Alaska 2006) (stating
the nature of the defendant’s conduct is a question of fact, reviewed for clear error); Ison
V. State, 941 P.2d 195, 197 (Alaska App. 1997) (appellate court reviews ruling on
mitigating factor by assessing the totality of circumstances, vi
viewed in a light most

c

.2

.22
>
Q

o\
vo
cn

o

g|

.1 I b 5 §T |

H-IE isja
X
>
o *£
> -r <

J3 £ g

so "O -

s

<*» ° .• j= & §*
=S »o8 < g.-r
^i
£

1m
98

&

<u
c
o

-G

O-

Q

w

favorable to upholding the trial court’s ruling.). Thus, this Court correctly did not present
||the facts °f Blalock’s crimes in the light most favorable to Blalock
Second, this Court did not misperceive any material facts or a material question
when rejecting Blalock’s Batts argument and proposed new
rule. On appeal, Blalock
argued this Court should require an interviewing officer to separately investigate whether
a suspect had anticipatoriiy invoked his Miranda rights (by reviewing every on-scene
officers’ audio recordings) before the officer may interview a suspect. Blalock argued that,
were this proposed rule applied here, the detectives would have
Batts by not reviewing the audio recording of Blalock

acted egregiously under

s arrest (and thereby hearing
Blalock’s anticipatory Miranda invocation) before interviewing Blalock. In his petitio
n for
rehearing, Blalock incorrectly reasons that this Court
rejected his proposed rule, and his
ensuing Batts analysis, because this Court misperceived whether any of the patrol
officers
3

involved in Blalock s arrest had downloaded their audio recordings before Blalock’s
interview. Blalock argues that Sergeant Christopher Sims downloaded his audio by 9:00
a.m., but Sgt. Sims did not specify at what time he downloaded his audio recordings. Sgt.
Sims testified that his shift ended at 9:00 a.m., and that “before [he] went home ... [at an
unspecified time, he] would have downloaded” the recording. [Tr. 1935] Regardless,
Blalock’s reasoning misconstrues this Court’s analysis.
Before expanding either Miranda or Edwards, this Court must consider whether
such an expansion’s “benefits outweigh its costs.” Maryland v. Shatzer, 559 U.S. 98, 10506 (2010). This Court properly applied this analysis in this case. Blalock, 2019 WL
4725166, at *7-8. Contrary to Blalock’s claim, this court did not reject Blalock’s proposed
expansion of Miranda and Edwards because this Court believed that none of the patrol
officers had downloaded their recordings. See id. This Court reasoned that, had the
detectives investigated whether Blalock had anticipatorily invoked his Miranda rights

e

, the

rn

on-scene officers would have “honestly, but mistakenly” said that Blalock had not asked

ON
NO

.2

a
—

r-

o is
§
«§
(MM

2
« <M C' P
•S Q.S O O B
rj
2 c ^« V
^ .£
o ^ go

jlf

< gt § '•B

*8 2 £ I § I
O
si o s - gC C “ ^

for a lawyer. Id. at *7. Thus, no benefit would be achieved under Blalock’s rule. Then this
Court explained it was also rejecting Blalock’s proposed rule because the rule “would deem
egregious a detective’s failure to listen to every available audio recording before

—

conducting a first interview with a suspect, even when, as here, the interrogation takes

tu

place during a dynamic, ongoing investigation and shortly after a suspect is brought into

ON

'W

«

B.

P

©

P

£

custody.” Id. Based on these factors, this Court concluded Blalock’s “proposed rule is
inconsistent with the practical realities of police investigations.” Id.
Thus, this Court did not base its analysis on whether any of the patrol officers
lad already downloaded their on-scene recordings. And for good reason. Blalock’s
proposed rule would apply to all post-arrest interviews, not just the interview in this case.
Given a patrol officer’s inability to download
4

recordings until the end of a patrol shift,

»

M

requiring detectives to wait hours during a dynamic and on-going investigation simply
would not advance the goals of Miranda and Edwards. Those goals are not to protect a
suspect from the consequences of his own candor; Miranda and Edwards are intended to
dispel the inherently coercive effect of custodial interrogation by ensuring that the suspect
comprehends his rights and to curb an increased risk of coercion created by repeated
requests for interrogation. Moran v. Burbine, 475 U.S. 412,426-27, 430 (1986); Shatzer,
559 U.S. 98 at 104-05. Yet, here, the circumstances forestall any finding that Blalock
was
subject to an increased risk of coercion. First, Blalock

was not subjected to more than one

| request for an interview. Second, when Sgt. Sims tried to clarify what Blalock said, Blalock
chose not to answer that he wanted a lawyer. Third, the detectives insisted that they
honor Blalock s invocation, if he made one to them.

would

As such, this Court correctly rejected

Blalock’s proposed rule.
Finally, were this Court to adopt Blalock’s proposed rule, such a decision would

a

.2

•2S
>
Q
“
O
« f ®
•2 a. -H O

o\
£
E' >
o
p d
©

gi s2 af

w .s a < ^ M
^

^ G*

. r

S'

s ! - I pi?
« O o

2
«

e.
Q

© "E

Os

b

on cross-appeal. Specifically, if the State

correctly argued that Blalock was not entitled to anticipatorily invoke his Miranda rights
at the scene, then the superior court’s initial order finding a Miranda!Edwards violation

CJ

3 § f f:11
Cm O

require this Court to resolve the State’s claims

E

w

|was ln eITOr' Wx*8 Blalock's rights under Miranda/Edward
-S were not violated, this
II
||Court,s holding in Batts would not control this
case and Blalock’s proposed rule for
egregiousness would be moot.

p

-c

a

Given the above, this Court should deny Blalock’s petition for rehearing.
DATED October 28, 2019.

KEVIN G. CLARKSON
ATTORNEY GENERAL
Ann B. Black (0105010)
Assistant Attorney General
5

IN THE SUPREME COURT FOR THE STATE OF ALASKA
Yoder Austin Blalock
Petitioner,

Alaska Supreme Court No. S-17612
Court of Appeals No. A-12282 & A-12301
Trial Court Case No. 3AN-11-12129CR

vs.
STATE OF ALASKA,

1

Respondent.

)

1 '
PETITION FOR HEARING
0>
<o
CO
eg

VRA AND APP. R. 513.3 CERTIFICATION

<i
o

I certify that this document and its attachments do not contain (i) the name of a victim of a sexual offense listed in AS
12.61.140 or (2) a residence or business address or telephone number of a victim of or witness to any offense unless it is
an address used to identify the place of the crime or it is an address or telephone number in a transcript of a court
proceeding and disclosure of the information was ordered by the court.

CO

S'
co

a
s

c

cu

I

-g
u.

u.

I

A.

o
<0

s?

Ci
£
Q)

■Q t

PRAYER FOR RELIEF.

lo <0

Petitioner Yoder Austin Blalock requests review of the Court of Appeals’ denial of

Q

his appeal.1 Petitioner Blalock filed a petition for rehearing with the Court of Appeals

Tg
o ^

s 5 g CM §
.£* o O

J) -r o> @

obtaining factual corrections but no relief on the legal issues.2

? -S! ^ ^ S

«) p u II) (J
£
efi § c
§O.Cc 2

The Court of Appeals erred by failing to provide relief on two legal issues: (1) where
an arrestee invokes his right to counsel whether law enforcement is legally on notice and
whether law enforcement agencies have a duty to proactively ensure that all subsequent law
enforcement officers are aware of the invocation; and (2) whether changes to the “Stand

I

A-12282 & A-12301 (September 27,2019); 2019 WL 4725166 (Alaska App. 2019),
P.3d
2 Blalockv. State, 2019 WL 4725166 (Alaska App. 2019)___P.3d
(.Petitionfor
Rehearing Granted in Part December 10, 2019).

Blalockv. State, -S-17612
Petition Tor Hearing
Page 1 of 15

Your Ground” statute should be applied retroactively as an ameliorative measure.
Basis for hearing:
Under Appellate Rule 304(a), the decision of the Court of Appeals conflicts with
other appellate decisions on the retroactivity of ameliorative statutes;3
Under Appellate Rule 304(b), the Court of Appeals has decided a significant question
concerning constitutional rights and remedies when a defendant invokes the right to counsel
under the United States and Alaska constitution and the question has not previously been
decided by this Court;
Under Appellate Rule 304(c), the Court of Appeals has decided a significant question

05

<o
00
CNJ

of law concerning the interrogation of suspects which has substantial public importance to

o
o

oo

law enforcement practices throughout the state and the question has not been previously

oo

s.

addressed by this Court;

o

c

•^5

.g
8

<T3

6

To

Under Appellate Rule 304(d), this Court’s exercise of supervisory authority would

CO

r^l

(1) clarify police practices with respect to electronic recording of apprehended suspects

I-g t; <\i 21o

statements; (2) clarify the Batts* decision regardi ng suppression of suspects ’ statements; and

U-

Ci
^

° •
iO ©

« aow *

(d

q

O Q) m

£
<5 tii § 1
S O .S « 2
^ cn "O Q-£
a s! ■Q ffl
<T5
^
-j
Q: k

*

(3) decide the retroactivity of the 2013 amendment to AS 11.81.335(b) known as the “Stand
Your Ground” amendment.
B.

STATEMENT OF FACTS.
Yoder Blalock was convicted of second-degree murder for killing Nathan Tanape in

a fight where Blalock was confronted by Tanape and two other men.5
Yoder Blalock was a 34 year old man with a long history of mental illness and

3 See, § C. 1. infra,
4 State v. Batts, 195 P.3d 144 (Alaska App. 2008).
5 R. 866; Tr. 1874-75 (60 years with 15 years suspended); Tr. 1499, 903, 905.

Blalock v. Stale, -S-17612
Petition for Hearing
Page 2 of 15

substance abuse6 and was homeless, living out of his truck.7 Several years prior to the
Tanape events. Blalock had been a victim of a severe assault where he was thrown to the
ground and kicked in the head - he suffered an intercranial bleed a “significant” nasal and
maxillary sinus fracture with “airway obstruction and external deformity” among other
injuries.8 Blalock occasionally injected methamphetamine and admitted using shortly before
the fight.9
Nathan Tanape and his friends spent the evening bar hopping and later regrouped at
Tanape’s apartment.10 Charlie Alexie retrieved Amy Chagluak from Chilkoot Charlie’s and
o>
<o
oo
eg
o
o
00

S'
Co
S2.
£

I
Q

£

o

a

rC |
§ ©

brought her to Tanape’s home.11 After a while. Amy wanted to leave and called a cab. 12
Tanape and Alexie were waiting outside with Amy for the cab when Blalock drove up and
began talking to them.13 Blalock and Alexie knew one another from Newtok where Blalock
had a child with Alexie's cousin.14 Blalock offered Amy a ride and, over Alexie5 s objections,
she got in the truck with him.15 Blalock and Amy rode around and then stopped for Amv to
use the restroom.16 While she gone. Blalock proceeded to shoot up methamphetamine. 17

JO
_ tr cm

o
« 30M It

E) o ®
E
“te <P
05 @
°
3:
8 8 ° g -5
jc It 0)0 c
§°l|
5
^ (n 33 Q. fc
=s £2 ^ -o

6 R. 1307-16 (“Axis 1: Schizoaffective Disorder, Bipolar Type; Posttraumatic Stress
Disorder; Polysubstance Dependence, ...Axis II: Personality Disorder, With Antisocial
Features”).
7 Tr. 1476.
8 Tr. 1471-72, 1477.
9 Tr. 1488.
10 Tr. 426, 429-34.
11 Tr. 309, 489.
12 Tr. 493.
13 Tr. 493-94.
14 Tr. 494.
15 Tr. 316-17, 496-97.
16 Tr. 318-19.
17 Tr. 1488.

Blalock v. Stale, -S-l 7612
Pclilion for I Icaring
Page 3 of 15

Amy returned and was shocked to see Blalock injecting himself.18 She asked to go back to
Tanape’s apartment using the ruse that she left her cigarettes there.19 Not understanding that
Amy was upset by seeing him shoot drugs. Blalock drove back to Tanape’s apartment and
waited in his truck for Amy to re-join him.20
After a while, Blalock got out of the truck and encountered Tanape who was smoking
a cigarette.21 Blalock asked Tanape for a cigarette and got a mumbled response.22 Next,
Blalock asked Tanape if he could go inside the apartment to ask Amy if she was still corning
out to re-join him.23 Tanape reacted aggressively, coming at Blalock, who fled down the
05

alley.2'1 Blalock followed Tanape at a safe distance and got back to his truck, and saw Tanape

<o

CO
CN
O
O
CO

S'

and another man standing in the apartment doorway.25 Blalock grabbed his bayonet from the
truck and held it up in the air and yelled at the men to leave him the “f

alone” and

co
c:

co

6
*o

•g
u_
d

CO

pretended to call 911.26 The men went inside the apartment, and Tanape continued to wait

g(?)

for Amy.27

o

CD

u_

N-'l
o c

Blalock next saw three men come out.28 Blalock testified that the three men came at

S
T £
S> t; cm o
•9
-a- c
5

him, and he did not think he would be able to make a safe get-away in his truck so he

<0 <D

8 §§^a

jfj cj «o PC' £
^ oi ^ o> vg;
° SI
5

grabbed the bayonet and pepper spray and ran into the alley.29 Blalock yelled at the men to

Q> O '•J 0> <0

pgl|

Ss|t|
~J Cvj Ct K £

18
19
20
21
22
23
2A
25
26
27
28
29

Tr.
Tr.
Tr.
Tr.
Tr.
Id.
Tr.
Tr.
Tr.
Tr.
Tr.
Tr.

292,-93, 319-20.
294, 1490.
1490, 1494.
1493.
1494.
1495-96.
1497.
1498.
1499.
1499-1500.
1500-01.

Blalock v. State, -S- l 7612
Petition for Hearing
Page 4 of 15

stop, but they came at him and he pepper sprayed them/0 Blalock testified that the pepper
spray did not stop Tanape and that Tanape lunged at him arid grabbed him by his jacket.31
Blalock testified that Tanape threw him to the ground on his back and was punching him.32
Having sprayed Tanape twice to no avail. Blalock defended himself with the bayonet.33
Tanape lei go, and Blalock got in his truck and drove off.34
Charlie Alexie testified that after getting out of Blalock’s track, Amy pulled him back
into the apartment leaving Tanape outside.33 Tanape re-entered the apartment telling others
that there was a guy outside with a knife acting crazy.36 Tanape followed by Alexie went
Oi

<o
oo

CNI

O
O
CD

c?

back out and confronted Blalock telling Blalock to leave and gesturing toward the road.37
Alexie testified that he heard Blalock say “1 got something for you” and then grab a can and
a “blade” out of the truck.38

co

00
CD

TO

£

•o
CD
c

a.
Q

155

o
<o
u.

§5

£
7£
«
6c
-a tr cm sj- 6
S 3 o Cm
£
^ o> o /»\
^0^0)0
O
^
o *o O Q) q

g * o, § |
TO £ «> «5 .2
—l CC t—

Alexie testified that Blalock and Tanape got into aggressive stances, and that he
(Alexie) advanced hoping to stop the fight.39 Alexie testified that Blalock sprayed Tanape
and slashed at him; Tanape responded by grabbing Blalock and slamming him down.'10 As
Alexie ran toward the two men Blalock sprayed him, and Alexie retreated into the
apartment.41 Tanape soon followed 42
30
31
32
33
34
35
36
37
38
39
40
41
42

Tr. 1502.
Tr. 1504.
Tr. 1506.
Tr. 1506-07.
Tr. 1510-11.
Tr. 498.
Tr. 499.
Tr. 500-01.
Tr. 501.
Tr. 504.
Tr. 505.
Tr. 506.
Tr. 507.

Blalock v. State. -S-17612
Petition for Hearing
Page 5 of 15

Tanape was bleeding and his friends called 911. and the police and ambulance
promptly responded.43 Tanape quickly become unresponsive, and died from what was
determined to be a stab wound to his lung.44 The police transported Alexie to APD
headquarters, but it took about three hours of sleep before Alexie was sober enough to
interview.45
Blalock contacted 911 after the incident and relayed that he had been in an
altercation46 Blalock was contacted by officers and taken into custody without incident.47
During the arrest, Blalock requested an attorney.48 The arresting officers testified that they
did not hear the request, although it was picked up on two officers5 digital recorders.49

o>
<o

00
CM
O

Blalock was transported to APD headquarters and interviewed by Detectives Gilmour

o

00

and Jakeway after being read Miranda50 rights.51 Neither detective checked the audio

to­
co

recordings although the arresting officers had uploaded the recordings to the server by the

c

<0

£

to

I
8<0

time the detectives interviewed Blalock.52

n:|

C.

•8
u.

u.

ci
£

5) <b
T£

STATEMENT OF POINTS RELIED UPON FOR REVERSAL.
1.

O

The Court of Appeals Erred by Upholding the Sup<erior Court’s
Erroneous Ruling on the Retroactivity of the “Stand V our Ground”
Amendment.

—- <31 VS/
o too S
es
8 8 ° g -s

Blalock argued before the superior court and on appeal that the 2013 amendments to

o>
o
52 3 O CM
a o o -v
m O co Fc
•Q t CM

“J

oi o

c
Co
£

?£§ s-f
I

43
44
45
46
47

Tr. 382, 384, 390.
Tr. 390-91,590,711-12.
Tr. 562-63; 815-16, 825-26,
Tr. 891-92.
Tr. 932.
48
Tr. 1905.
49 Tr. 1369-70, 1777, (see Section V.A).
50 Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966)
51 Tr. 1950-52.
52 Tr. 1927, 1935, 1950. The Court of Appeals corrected this fact pursuant to
Blalock’s Petition for Rehearing.
Blalock v. Slate, -S-17612

Petition for Hearing
Page 6 of! 5

AS 11.81.335(b) (“duty to retreat") clarified existing law and should apply retroactively.
The 2013 legislative session amended AS 11.81.335(b)-theselfdefensejustification
statute - to “clarity” the duty to retreat.53 The amendment added subsection (5) stating there
is no duty to leave the area of encounter if a person is:
(5) in any other place where the person has a right to be.54
The trial court denied Blalock’s proposed “stand your ground” jury instruction: on appeal
Blalock argued that fai lure to give the jury instruction denied him due process.55
The encounter between Blalock and the three men took place on a public street, so
Blalock requested a jury instruction that he had no duty to retreat,56 Blalock provided notice

05

<o

00

Cm

6

of intent to raise a justification defense.57 He later submitted briefing on the applicability of

S'
CO
S5.

the “stand your ground" amendment.58 Blalock’s brief included exhibits documenting

O
00

§
6

T3

f
ci
£

legislative intent59 and. argued that the amendment was a “clarification” of existing law.60

s

Blalock relied on the “Sponsor Statement” for HB 24 which read:

w

O
TO

u.

to 0)

T^

05
O c
-Q
cm
o
<o tr
a o
cm
.ID o o —v

a

Qj O £
B
fl) —. § (§)

8 S°. g.f
|

Alaska Statutes already recognize the we have a right to use deadiv force to protect
our family, person, ana property. HB 24 further clarifies that right exists not only
in our home but also in any other place that we have a right t<Tbe.
This legislation clarifies the individuals’ right to stand their ground and not second
guess the consequence of protecting their family or self.61
Additional expressions of legislative intent attested that it clarified existing law.62
Despite the sponsor’s documentation of legislative intent, the Court of Appeals

-J CM

53 House Bill 24 (2013 legislative session). (Certified copy at R. 18-21),
54 AS 11.81.335(b)(5) as amended.
55 At. Br. at 33-40.
56 At. Br. at 33-4.
R, 3, 225-32 (Blalock briefed the defense’s right to present a self-defense case)
58 R. 3-35.
59 R. 23-35.
60
R. 6-7.
61 R. 23 “Sponsor Statement” (Rep. Mark Neuman) (.Emphasis added).
62 R, 4-5 and Exhibits to Brief at R, 16-35.
Blalock v. Stale. -S-17612
Petition for Hearing
Page 7 of 15

dismissed the formal statements and relied on colloquy from hearings and (distinguishable)
rulings from other jurisdictions.63
The Court of Appeals relied upon cases from jurisdictions where the retroactivity of
legislation turns on whether it makes a “substantive” or a “procedural” change in the law:
procedural changes are retroactive whilst substantive changes are not.64 But Alaska does not
use the substantive/procedural distinction when deciding retroactivity.65 Alaska case law
instead looks at whether the statute makes an “ameliorative” change in the law and supports
retrospective application in such cases.66
Deciding whether to apply a change in sentencing retroactively, the Supreme Court

o>
<o

CO

in Zurfluh v. State67 held:

Cvj

o
o
CO

The general rule of construction of curative legislation is that retroactivity will be
ascribed to it more readily than to that which may disadvantageous!)', though legally,
affect past relations and transactions.68 The apparent intent of the legislature as that
the benefits of this type of sentencing should be available to trial judges as soon as

sCO
00

TO
ts

:§?
u.

ci
£

2
<0

u.

n:|

C

<D

ra "§ o oii §
•t! o o
-fc

ig
S S'
£
^ O 05
o /ON
•o

AS 01.10.090 states: “[n]o statute is retrospective unless expressly declared therein.”

§ 6

£

g e °„ g -2

But, HB 24 did not enact a new statute, instead, according to its sponsor, it added a clarifying
subsection to an affirmative defense. Similarly, AS 11.81.200 which defines the effect of
an amendment or repeal of criminal statutes is not applicable:

g
a -c
6 S
O O .c
g

sCStf
"■"•glsi

—J CNJ

63 2019 WL 4725166 *10 n. 39.
Id. citing Smiley v. State, 966 So.2d 330, 334-36 (Fla. 2007): Commonwealth V.
Slone, 291 S.W.3d 696, 703-04 (BCy. 2009); People v. Conyer, 281 Mich.App. 526, 762
N.W.2d 198, 200-01 (2008): Anderson v. State, 46 So.3d 835, 838 (Miss. App. 2010).
65 See, Zurfluh v. State, 620 P.2d 690 (Alaska 1980); At. Opening Br. at 35-6.
66 See, e.g. Helton v. State, 778 P.2d 1156 (Alaska App. 1989); State v. Stafford. 129
P.3d 927 (Alaska App. 2006).
67 620 P.2d 690.
68
Id. at 693 citing, 2 C. Sands, Sutherland Statutory Construction § 41.04 at 253 (4lh
ed. 1973).
69 Zurfluh, 620 P.2d at 693.
Blalock v. State, -S-17612
Pciilion for Hearing
Page 8 of!5

When all or part of a criminal statute is amended or repealed, the criminal statute or
part of it so amended or repealed remains in force for the purpose of authorizing the
accusation, prosecution, conviction, and punishment of a person who violated the
statute or part of it before the effective date of the amending or repealing Act. unless
otherwise specified in the amending or repealing Act.
HB 24 amending AS 11.81.335(b) was a clarification of an affirmative defense and not a
change in a penalty or the definition of a crime.
Alaska appellate courts have retroactively applied statutory changes despite no explicit
legislative directive: Helton v. State10 (applying new good time calculation beneficiary to
prisoners retroactively) and State v. Stafford" (applying statutory reduction in “look back"
o>

to

00

<N

o
o

CO

S

period for prior DUI convictions to cases pending sentencing where the offense before the
law’s effective date).
The Court of Appeals erroneously interpreted the legislative history which definitively

00

c

to

s

TO

■g

u.
ci
£

tu

states that the intent and scope of the amendment was meant as a clarification of existing
.E
to

law.72 The Court of Appeals relied on minutes of an exchange during a hearing between the

(0

u.

NT ®

Eo Qj

T -S

Strjt j §
S son o

03 O § £ E
'tr
O 05
0) ^- O) (§)
I

sponsor. Representative Neuman and an opponent. Representative Gara. rather the official
statements of legislative intent. Then Attorney General Geraghty wrote to the members of
the Senate Judiciary Committee that citizens “have a right to protect themself outside the
home if confronted by deadly force.” and the administration supported the amendment.73

§
^^1

a.

-J Osj

The Failure to Provide a Jury Instruction on “Stand Your
Ground” Impacted the Jury Deliberations and Decision.

The prosecution argued in closing that Blalock could have safely retreated contending
Blalock had multiple opportunities to withdraw and leave.74 The prosecution maintained that

70 778 P.2d 1156 (Alaska App. 1989).
71 129 P.3d 927 (Alaska App. 2006).
72 2019 WL 4725166 at 8*9; Contrast R. 23-26.
73 R. 28-9.
74Tr. 1688. 1712-13.
Blalock v. Stale, -S-17612

Petition for Hearing
Page 9 of 15

r

Blalock had a duty to retreat rather than get himself in a situation where he employed deadly
force.75
During deliberations, the jury requested clarification on the duty to retreat instruction
and made repeated requests to view portions of Blalock’s and Alexie's testimony.76 Shortly
after beginning deliberations, the jury asked: “The jury requires definition on the duty to
retreat in respect to self defense.”77 The court responded with a reference to one of
instructions and stated all instructions should be considered together.78
b.
o>
<o

“The propriety of jury instructions generally raises questions of law that are subject

00
CXI

o
O
co
0?

to the independent judgment standard of review. 5*79 If a timely objection is made, jury
instructions are reviewed de novo*0 Errors in jury instructions are not grounds for reversal

00

Si
0)
C
03

£

*o

u.
Q

£

<D
„

unless the errors are prejudicial.81 An erroneous instruction is prejudicial if the verdict may

.g
8
u.<0
n:

have been different if an erroneous instruction were not given.82
®

§
T •£
c

■Q t <N 'fr o
5 a o <ni m

3 o « 5“ £

£ « ® §<§)

8 pe

£§ c

§ N?

^

£

This Court Should Find that Jury Instruction 13C Was an
Inaccurate Statement of the Law and Requires Reversal.

g -a

' Qj CT3

3£$£I

75
76
77
78

Tr. 1711-12.
R. 689, 686; Tr. 687, 688.
R. 690.
R. 690 (court’s response); R. 1394 (Instruction 13C).
Sicite v. Carpenter, 171 P.3d 41,54 (Alaska 2007) citing City of Kodiak v
Samaniego, 83 P.3d 1077,1082 (Alaska 2004).
80 Carpenter, supra, citing Glamann v. Kirk, 29 P.3d 255,259 (Alaska 2001); Blalock
repeatedly preserved his objection to the lack of a “stand your ground” instruction. See, e.g.
R. 355-57.
81 Carpenter, supra, citing Coulson v. Marsh & McLennan, Inc., 973 P.2d 1142 ,1150
n. 21 (Alaska 1999).
82 Carpenter, supra, citing Beck v. State, Dep’t ofTramp. & Pub. Facilities, 837 P.2d
105, 114 (Alaska 1992); State, Dept ofCorr. v. Johnson, 2 P.3d 56, 61 (Alaska 2000).
(reversing for new trial where erroneous'instruction made verdict for plaintiff more likely)See also Wilson v. State, 967 P.2d 98,102-03 (Alaska App. 1998) (the appropriate standard
of review is whether the jury instructions, as a whole, accurately state the law that governs
Blalock V. Stale, -S-176I2
Petition for Hearing
Page 10 of 15

In Blalock’s case, the jury was not instructed with the 2013 clarification to AS
11.81.335(b). The current jury instructions contain the language Blalock requested.
“Justification - Use of Deadly Force in Defense of Self ’:
... .or [for crimes occurring after September JS, 2013] the defendant is in any
other place where the defendant has a right to be.83
If the court had agreed to use this language, the model instruction language would
have been part of Instruction 13C to clarify when a person can stand their ground:
However, a defendant does not have a “duty to leave the area” if the defendant
is in any other place where the defendant has a right to be.84
Blalock had the right to be in a public street. He was under no legal obligation to

o>
<o

00
<\l

o

leave because Tanape told him to do so. Blalock testified that he thought that Amy had gone

55-

in the apartment to get her cigarettes and that she would be out shortly.85 Although Blalock

o
CO

00

'=

£

'55

•g
u.

U.

■Q

Ci

may have been mistaken about Amy’s intentions, he nonetheless had the right to wait for her

rg

C

in a public street. Ifjury instruction 13C had stated that Blalock had no duty to retreat from
the area, then the verdict would have resulted in an acquittal because the jury was

in QJ

T
£
O C

•Q t: cm
o
g =3O C\J ^

Uj
S °
CD ®S

E

88ug|

questioning this very issue and was focusing on Blalock’s and Alexie’s versions of events.
This Court should reverse the conviction because the erroneous jury instruction was
prejudicial, and the revised language would have led to acquittal.

0O.S0 ™

2.

ARR,E™ll]1<ls^NVOKEDASONAIi'-E ,NQWRY WI™R AN
Blalock’s statements to the detectives were suppressed under Miranda86 and Edwards

the jury's decision).
11.81.335 (Revised 2014) (Source: court website).
84 Id.
85 Tr. 1490, 1571.
86
Miranda v. Arizona. 384 U.S. 436 (1966).
Blalock v. State, -S'17612
Petition for Hearing
Page llof ! 5

'

v. Arizona87 because audio recordings of the arrest revealed Blalock clearly requested to
speak with an attorney.88 The superior court found that the “invocation was clear as a bell
on the audio tapes. i)S9 1 he attesting officers uploaded their short audio tapes — containing
Blalock’s invocation - prior to leaving their shift, and detectives did not begin interrogatina
Blalock until over an hour and a half later.90 The detectives had ample opportunity to review
the audio tapes or speak with the arresting officers and failed to do so.
The superior court suppressed Blalock’s statements to the detectives, but allowed the
statements for impeachment if Blalock testified.91 After the state rested, the defense moved
o>

CO
00
Csi

o
o

00

interlocutory appeal to the Court of Appeals which reversed and remanded for further

£

evidentiary proceedings.94 I he superior court held an evidentiary hearing where
a state
expert gave a psychological explanation why the officers did not hear Blalock’s invocation

§

£

.§25

■g

U.

CD
■Q

U.

Q

I

uj

behavior under Batts n The superior court granted the defense motion.93 The state took an

55oo
c

to prevent use of Blalock s suppressed statements for impeachment arguing “egregious”

O
CD

8 S

Si

alftough the audio recordings picked it up* The superior court subsequently ruled that
Blalock s interrogation could be used for impeachment.96

o & J? £

S8°?s

§ 3 £S I
to N ,5 .<]) -9?

--J CM QC h-

87 Edwards v Arizona. 451 U.S. 477 (1981)
88 Tr, 1801
89 Id.
90 Tr. 1927,1935, 1950 (Arresting officer went off shift at 9:00 a.m. and interrogati
ion
began after 10:30 a.m.).
R. 198 (.. to impeach the Defendant’s contradictory testimony at trial”)
1 r. 1091-92; Batts. 3 95 P.3d 144.
93 Tr. 1110,
94 R. 345-56; A-12035.
95 Tr. 1284-92.
Trr. 1454-60: At. Opening Br. at 20-24.

Blalock v. Slate, -S-17612
Petition Tor I icaring
Page 12 of 15

Blalock argued on appeal that because audio recordings of encounters between poliice
and suspects are now routine, a logical extension of Edwards v Arizona requires the
recordings to be reviewed by subsequent interrogators prior to interrogation to ensure that
the suspect has not invoked.97 Edwards held that a suspect cannot be interrogated after he
has invoked his right to counsel even if re-advised of the right to counsel. 98 Arizona v.
Roberson99 clarified that it is a Miranda violation even where the interrogating officer was
unaware that the defendant had requested counsel from a previous officer. 100
The Blalock superior court relied upon a Minnesota Supreme Court decision. State v.

o
o

Chavarria-Cruz, 101 in its initial suppression decision. 102 In Chavarria-Cruz the officer
testified at a suppression hearing that he did not hear a request for a lawyer.103 But, the

Eo-

interrogation recording contained the invocation even though Chavarria-Cruz spoke softly . 104

o>
<o

CO
CM
00
00

$2.

I

-§
1C

ci
£

The Minnesota Supreme Court emphasized that the test is not “subjective” i.e. whether the

1

officer “in fact heard” the defendant invoke, but rather the test is objective - “reasonable

8
i?
§ <b

police officer” standard. 105 Blalock relied on Chavarria-Cruz in his appellate briefing and

'T ig
a>
-O t tM § O
® -3 O CM Jg
•!S oO-v.'t-

argued that under an objective test he invoked.106 . .The Court of Appeals concurred that the

oj.'S O (u ^

97 At. OpeningBr. at 25 et. seq.
98 451 U.S. at 484-85.
99 486 U.S. 675 (1988).
differen^officer486 U'S‘ at 678 (defendant interrogated about a different offense by a

$o °

t

i d5 § 1
o ° s -s g
-J CM

101
102
103

104
105
106

784 N.W.2d 355, 360 (Minn. 2000).
R. 327.
Chavarria-Cruz, 784 N.W,2d at 360.
Id. at 359-60.
Id. at 362.
At. Opening Br. at 29-31.

Blalock v. Stale, -S-17612
Petition lor Hearing
Page 13 Of 15

test is objective, but failed to apply an objective test to the Blalock facts. 107
The superior court held that it was “too high a burden”108 to impose on the police to
review audio tapes: the Court of Appeals concurred. 109 But, the Court of Appeals
mischaracterized Blalock’s argument when it held:
But Blalock’s proposed rule would deem egregious a detective’s failure to listen to
every available audio recording before conducting a first interview with a suspect,
even when, as here, the interrogation takes place during a dynamic, ongoing
investigation and shortly after a suspect is brought into custody. This proposed rule
is inconsistent with the practical realities of police investigations.110
Blalock was the only suspect in Tanape s death, and he was apprehended shortly
o>

afterwards. It was not a kidnapping or hostage situation where time is of the essence to

to
CQ

<N

o
o

00

S'
CO

s.
c

<0

£

TO

■g
U.

Ci
£

=§

•gw

o

ctj

u.

SS'l
in <b
T
o L
^

question a suspect. Blalock was in police custody for hours prior to the interrogation.111
Blalock s airest was quickly accomplished without incident and within minutes of the poliice
locating him. The audio from the arresting officers were on the police server and were
readily available to the detectives. There were no “practical realities” preventing the
detectives from listening to the audio.
1 his Court should recognize that police audio and video recording of encounters with

■OtlMV n

suspects are prevalent throughout the state. The standards for police conduct need to evolve
0) "S
O (D
q, (0
Q)
O ^

g is efi § g

Jn-Q ®-Q
—J CSJ

with the progress of technology. The state’s expert testified that human beings can often
miss vocalizations which are readily heard on a recording because of too many audio
distractions during an event. Given the human frailty and the ubiquitous technological

107

At. Br. at 13, 30-1: Blalock, 2019 WL 4725166 at *7.
Blalock, 2019 WL 4725166 at *5.
109
Id. at *7.
110 Id.
111 Tr. 1947, 1950; At. Br. at 27-8.
108

Blalock v. Slate, -S- ] 7612
Petition for Hearing
Page 14 of 15

assists, this Court should establish a legal framework which requires the police to safeguard
suspects rights. If the audio recordings can be used to prosecute, the recordings should also
be used to safeguard rights. 1 he question is whether (where no public safety concerns exist)
an interrogating officer should be required to make a reasonable effort to review recordings
to ensure that a suspect has not invoked. Blalock presents this Court the opportunity to also
rule that a reasonable officer has a duty' to review recordings and report any invocation to the
officers who are interrogating a suspect especially where an arrest has been made during a
high-risk arrest situation involving multi-tasking and multiple audio input.
O)
<0
00
CM

•g
U.
cj
£

STATEMENT OF CONCRETE REASONS.

6
O

Under Alaska Appellate Rule 304(b) and (c) this Court should grant Yoder Blalock’s

f$2.

petition for hearing in order to clarify the constitutional standard for police conduct in

5

interrogations of suspects who have invoked the right to counsel. Under Alaska Appellate

05
LL

Rule 304(a) this Court should reconcile this case with appellate decisions on the retroactivity

CO

c
co
E

D.

-3
£
c5
o

t!

|t:M§ o

of ameliorative statutes. Under Appellate Rule (d) both issues have statewide implicati ons
and require review.

.§ §§^f
®°§od
§2°^5

Dated this

(A

day of December, 2019.

■r

is A 03 O m

lB?|l

Elizabeth D. Friedman, Alaska Bar No. 9306027
Law Office of Elizabeth D. Friedman (OPA contractor)
Petitioner Yoder A. Blalock

—J CM Q£ K* «♦£

Blalock v. Stale, -S-J7612
Petition for Hearing
Page 15 of 15

•-*,1 * ,

IN THE SUPREME COURT FOR THE STATE OF ALASKA
Yoder Austin Blalock
Petitioner,
vs.
STATE OF ALASKA
Respondent.

)
)
)
)
)
)
)
)
)
)

Alaska Supreme Court No. S-17612
Court of Appeals No. A-12282 & A-12301
Trial Court Case No. 3AN-11-12129CR

O)
CO
CO
<\J

6

CERTIFICATE OF SERVTGF

O
CO

C?
CO

Si

I certify that a true and correct copy of the Supreme Court Petition for Hearing and

C
<T3
<0

o

10

co
LL

.3?

u:

a copy of the judgment from which taken were mailed via first class mail to:

N.' ®

o S
>o <u

Ci_

€
Q)

-O tr

o g

T •£^
cm

Ann B. Black, Assistant Attorney General
Office of Criminal Appeals
1031 West 4th Avenue, Ste 200
Anchorage, AK 99501

r>

gE
Stf

fee* § c

?c|t|
~J c\|

Dated this 2$

Jday of December, 2019.
/

Elizabeth D. Friei [man
Attorney for Petitioner Yoder A. Blalock
Alaska Bar No. 9306027
Law Office of Elizabeth D. Friedman

Additional material
from this filing is
available in the
Clerk's Office.

